Audit Report




OIG-12-011
Audit of the Community Development Financial Institutions
Fund’s Fiscal Years 2011 and 2010 Financial Statements


November 15, 2011




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF                                 November 15, 2011
INSPECTOR GEN ERAL




            MEMORANDUM FOR DONNA J. GAMBRELL, DIRECTOR
                           COMMUNITY DEVELOPMENT FINANCIAL
                           INSTITUTIONS FUND

            FROM:                    Michael Fitzgerald
                                     Director, Financial Audits

            SUBJECT:                 Audit of the Community Development Financial Institutions
                                     Fund’s Fiscal Years 2011 and 2010 Financial Statements


            I am pleased to transmit the attached audited Community Development Financial
            Institutions Fund (CDFI) financial statements for fiscal years 2011 and 2010. Under a
            contract monitored by the Office of Inspector General, KPMG LLP, an independent
            certified public accounting firm, performed an audit of CDFI’s statements of financial
            position as of September 30, 2011 and 2010 and the related statements of operations
            and changes in net position and cash flows for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted government
            auditing standards; applicable provisions of Office of Management and Budget Bulletin
            No. 07-04, Audit Requirements for Federal Financial Statements, as amended; and the
            GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                 •   Independent Auditors’ Report;
                 •   Independent Auditors’ Report on Internal Control Over Financial Reporting; and
                 •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found that the financial statements were fairly presented, in all
            material respects, in conformity with U.S. generally accepted accounting principles.
            However, KPMG LLP identified two significant deficiencies related to controls over (1)
            grant accruals; and (2) grant disbursements, which were considered material
            weaknesses. Further, KPMG LLP found no instances of reportable noncompliance with
            laws and regulations tested.

            In connection with the contract, we reviewed KPMG LLP’s reports and related
            documentation and inquired of its representatives. Our review, as differentiated from an
            audit performed in accordance with generally accepted government auditing standards,
            was not intended to enable us to express, and we do not express, an opinion on CDFI’s
            financial statements or conclusions about the effectiveness of internal control or
            compliance with laws and regulations. KPMG LLP is responsible for the attached
            auditors’ reports dated November 10, 2011, and the conclusions expressed in the
            reports. However, our review disclosed no instances where KPMG LLP did not comply,
            in all material respects, with generally accepted government auditing standards.
Should you have any questions, please contact me at (202) 927-5789, or a member of
your staff may contact Catherine Yi, Manager, Financial Audits, at (202) 927-5591.

Attachment
                                                    1




Community Development Financial Institutions Fund
     United States Department of the Treasury


             Agency Financial Report
                    FY 2011




                                                    1
                                                              Table of Contents



Message from the Director ............................................................................................................................... 3
Community Development Financial Institutions Fund Overview .................................................................... 5
Program Discussion and Analysis ................................................................................................................. 11
  Community Development Financial Institutions Program ......................................................................... 12
  Native Initiatives ......................................................................................................................................... 18
  Capacity Building Initiative ........................................................................................................................ 20
  New Markets Tax Credit Program .............................................................................................................. 21
  Bank Enterprise Award Program ................................................................................................................ 27
  Financial Education and Counseling Pilot Program ................................................................................... 29
  Capital Magnet Fund .................................................................................................................................. 29
  CDFI Bond Guarantee Program ................................................................................................................. 30
Status of Financial Management..................................................................................................................... 31
Independent Auditor’s Report ........................................................................................................................ 41
Financial Statements and Notes ...................................................................................................................... 51
Notes to the Financial Statements ................................................................................................................... 55
Appendix A: FY 2010 CDFI Fund Award and Allocation Activities ............................................................ 72
Appendix B: Aggregate Awards (Total CDFI Fund Awards From Inception) ............................................. 74
Appendix C: Glossary of Acronyms ............................................................................................................... 76




                                                                                                                                                              2
Message from the Director
I am pleased to present the fiscal year (FY) 2011 Agency Financial Report for the Community Development
Financial Institutions Fund (CDFI Fund).

As our nation struggled with a deepening recession in early 2009, the CDFI Fund was called upon to play a
significant role in the nation’s economic recovery efforts. In FY 2009 and FY 2010, we answered that call
with dedication and skill, and produced a number of unprecedented accomplishments. In FY 2011, as this
edition of the Agency Financial Report documents, we continued to build upon the outstanding record that
we established over the previous two years.

Indeed, we set two important records in FY 2011. First, we announced the largest single round of monetary
awards in the history of the CDFI Fund. The awards were made through the FY 2011 round of our flagship
program, the Community Development Financial Institutions Program (CDFI Program), and totaled $167.3
million for both Financial and Technical Assistance awards, including the $25 million from the CDFI
Healthy Food Financing Initiative (HFFI) awards. The previous record — $104.8 million — was set last
year, during the FY 2010 round of the CDFI Program. We have now awarded more than $1 billion through
the CDFI Program since the CDFI Fund was created in 1994.

Second, as of September 30, 2011, the number of certified Community Development Financial Institutions
(CDFIs) reached 963 — again, the most in our history. We expect the number to continue to grow, as we
are certifying more organizations as CDFIs each month.

The CDFI Fund made significant progress in a variety of other areas as well in FY 2011. At the end of
2010, we launched a partnership with the U.S. Small Business Administration (SBA) on a new loan
initiative called Community Advantage. Under this new program, the SBA is opening its flagship 7(a)
lending program for the first time to CDFIs and other community-based lenders, and will allow them to
originate SBA 7(a) loans up to $250,000.

We also launched our new Capacity-Building Initiative, which is designed to expand technical assistance
and training opportunities for CDFIs nationwide. Last October, we announced the first five contractors that
will provide training and technical assistance through the program and, in May and June, we presented the
first training sessions in Detroit, Philadelphia, and Oakland.

As part of the First Lady’s Let’s Move campaign to fight childhood obesity, we launched the HFFI.
Through the HFFI, we made $25 million in awards under the CDFI Program to CDFIs focused on
developing solutions for increasing access to affordable healthy foods in low-income communities.

In addition, we presented a series of workshops to promote economic development in Native American
communities. Titled “Growing Economies in Indian Country: Taking Stock of Progress and Partnership,”
the series expanded on the workshops we offered in 2010 and was co-sponsored by the CDFI Fund, the
Federal Reserve, and a number of other federal agencies. The workshops were held in six locations around
the country from June through September 2011, and attracted more than 600 participants.

Also in July, we began soliciting comments regarding the design, implementation, and administration of the
CDFI Bond Guarantee Program, which will offer CDFIs a new source of long-term, patient capital for loans
and investments in low-income communities. The CDFI Fund is the administrator for this program and has
hired staff to lead the effort.

                                                                                                          3
Finally, in August, we announced that, through the 2011 round of the New Markets Tax Credit Program
(NMTC Program), we received a total of 314 applications, which is the most we have received since 2002
and reflects an increase of 26 percent over last year’s total. The strong demand for NMTC allocation
authority offers clear evidence of the critical need for investments in our nation’s low-income communities.

I would like to thank the staff of the CDFI Fund for their exceptional service during FY 2011. All of us at
the CDFI Fund remain mindful of the tremendous responsibility that we continue to play in helping to
revitalize our nation’s most distressed communities, and we are committed to reaching new heights in FY
2012.

Donna J. Gambrell




Director
Community Development Financial Institutions Fund




                                                                                                              4
Community Development Financial Institutions Fund Overview

Overview
The Community Development Financial Institutions Fund (CDFI Fund) was created for the purpose of promoting
economic and community development through investment in and assistance to Community Development Financial
Institutions (CDFIs). The CDFI Fund’s role in promoting community and economic development was expanded in FY
2001 when the Secretary of the Treasury delegated to the CDFI Fund the responsibility of administering the New
Markets Tax Credit Program (NMTC Program). The breadth and depth of the CDFI Fund’s reach was further
expanded in FY 2008, with the enactment of legislation that created the Financial Education and Counseling Pilot
Program (FEC Pilot Program), and in FY 2009 with the enactment of legislation that created the Capital Magnet Fund
(CMF), both of which were implemented in FY 2010; and again in FY 2010 with the enactment of legislation that
created the CDFI Bond Guarantee Program for which the CDFI Fund began implementation in FY 2011.

Since its creation in 1994, the CDFI Fund has awarded more than $1.4 billion to CDFIs, community development
organizations, and financial institutions through the Community Development Financial Institutions Program (CDFI
Program), the Bank Enterprise Award Program (BEA Program), and the Native Initiatives, which includes the Native
American CDFI Assistance Program (NACA Program). In addition, the CDFI Fund has allocated $29.5 billion in tax
credit authority to Community Development Entities (CDEs) through the NMTC Program.

Authorizing Legislation
The CDFI Fund was established as a bipartisan initiative under the Riegle Community Development and Regulatory
Improvement Act of 1994, which authorized the CDFI and BEA programs. The NMTC Program was authorized
through the Community Renewal Tax Relief Act of 2000. The FEC Pilot Program and the CMF were authorized
through the Federal Housing Finance Regulatory Reform Act of 2008. The CDFI Bond Guarantee Program was
authorized as part of the Small Business Jobs Act of 2010.

CDFI Fund’s Vision and Mission
The CDFI Fund’s vision is to economically empower America’s underserved and distressed communities. Its mission
is to increase economic opportunity and promote community development investments for underserved populations
and in distressed communities in the United States. The CDFI Fund achieves its purpose by promoting access to
capital and local economic growth through the following programs:

       Community Development Financial Institutions Program, which provides Financial Assistance awards to
       institutions that are certified as CDFIs, and Technical Assistance grants to certified CDFIs and entities that
       will become certified as CDFIs within three years;

       Native Initiatives, which assists entities in overcoming barriers that prevent access to credit, capital, and
       financial services in Native American, Alaskan Native, and Native Hawaiian communities (Native
       communities). The Native Initiatives’ central component is the Native American CDFI Assistance Program
       (NACA Program), which increases the number and capacity of existing or new CDFIs serving Native
       Communities. In addition, the Native Initiatives provide training to help strengthen and develop Native
       CDFIs;

       New Markets Tax Credit Program, which provides tax credit allocation authority to certified Community
       Development Entities (CDEs), enabling investors to claim tax credits against their federal income taxes. The
       CDEs in turn use the capital raised to make investments in low-income communities;


                                                                                                                        5
        Bank Enterprise Award Program, which provides monetary awards to FDIC-insured banks for increasing
        their investment in low-income communities and/or in CDFIs;

        Capital Magnet Fund, which provides grants for CDFIs and other non-profits to finance the development,
        rehabilitation, and purchase of affordable housing for low-income people;

        Financial Education and Counseling Pilot Program, which provides financial assistance awards to enable
        certified CDFIs and other eligible organizations to deliver a variety of financial education and counseling
        services to prospective homebuyers; and

        CDFI Bond Guarantee Program, which will provide a federal guarantee for bonds or notes issued by CDFIs
        or other qualified issuers for economic and community development purposes.

What is a CDFI?
CDFIs are specialized, community-based financial institutions that serve low-income people or work in economically
distressed communities, often working in market niches that may be underserved by traditional financial institutions.
Only financial institutions certified by the CDFI Fund can receive Financial Assistance awards through the CDFI
Program and the NACA Program. Technical Assistance awards are available through both programs to certified
CDFIs and entities that propose to become certified CDFIs.

CDFIs provide a unique and wide range of financial products and services that help their customers build wealth and
achieve the goal of participating in the ownership society. While the types of products made available are generally
similar to those provided by mainstream financial institutions (such as mortgage financing for low-income and first-
time homebuyers, small business lending, and lending for community facilities), CDFIs often lend to and make equity
investments in markets that may not be served by mainstream financial institutions. In addition, CDFIs may offer rates
and terms that are more flexible to low-income borrowers. CDFIs also provide services that help ensure that credit is
used effectively, such as technical assistance to small businesses, and home buying and credit counseling to
consumers. CDFIs include depository institutions, such as community development banks and credit unions, and non-
depository institutions, such as loan funds and venture capital funds.

Certification of Community Development Financial Institutions and Community
Development Entities
CDFI certification is a designation conferred by the CDFI Fund. An organization must be a legal entity and meet the
following six statutory and regulatory criteria:

        1) Have a primary mission of promoting community development;

        2) Serve principally an investment area or targeted population;

        3) Be an insured depository institution, or make loans or development investments as its predominant
           business activity;

        4) Provide development services (such as technical assistance or counseling) in conjunction with its
           financing activity;

        5) Maintain accountability to its target market; and

        6) Be a non-governmental entity and not be controlled by any governmental entities.

CDFI certification is a requirement for accessing a Financial Assistance award from the CDFI Fund through the CDFI
                                                                                                                        6
Program and the NACA Program, and certain benefits through the BEA Program. During FY 2011, 55 CDFIs were
newly certified. As of September 30, 2011, there were 963 certified CDFIs. This compares to 929 CDFIs that were
certified as of the end of FY 2010. CDFIs are headquartered in all 50 states, the District of Columbia, Guam, Puerto
Rico, and the U.S. Virgin Islands.

A Community Development Entity (CDE) is a domestic corporation or partnership that is an intermediary vehicle for
the provision of loans, investments, or financial counseling in low-income communities through the NMTC Program.
To be certified as a CDE, organizations must demonstrate a primary mission of serving low-income communities and
low-income people, and must demonstrate that they are accountable (through representation on a governing board or
advisory board) to residents of low-income communities. CDEs are certified as such by the CDFI Fund and are
eligible to apply for allocation of tax credit authority through the NMTC Program.

Many CDEs create multiple subsidiary CDEs to own specific assets or classes of assets; as a result, 740 new CDEs
were certified in the year ending September 30, 2011. Benefits of CDE certification include being able to: (1) apply to
the CDFI Fund to receive an allocation of NMTC authority to offer to investors in exchange for equity investments in
the CDE and/or its subsidiaries; or (2) receive loans or investments from other CDEs that have received a NMTC
allocation. CDEs must be certified in order to receive allocations of tax credit authority. As of September 30, 2011,
5,298 CDEs were certified. This compares to 4,558 CDEs that were certified as of the end of FY 2010. CDEs are
headquartered in 49 states, the District of Columbia, Puerto Rico, and the U.S. Virgin Islands.

Allocation of CDFI Fund Funding

The CDFI Fund’s appropriations comprise program funds and administrative funds. Program funds are amounts that
are used for program awards (such as grants, loans, deposits, equity investments, and capacity building / training
contracts); administrative funds are amounts used to cover the costs to administer all programs, including the NMTC
Program. As noted above, the Secretary of the Treasury has delegated authority to the CDFI Fund to allocate tax credit
authority through the NMTC Program. As NMTCs are not monetary awards, they are not reflected in the chart below.
NMTC Program administrative expenses are included in the administration costs below.

Sources of Funding
Congress appropriates funding annually to the CDFI Fund; each appropriation can be used over two fiscal years.
Appropriations include fiscal year budget authority, and any unobligated funds from the prior year may be carried
over. The annual appropriation amount includes borrowing authority to make loans.

                       Sources of CDFI Fund Funding
                                     (Amounts in Millions)

                                                                FY 2011     FY 2010

 Appropriations                                                   $226.5     $260.2
 Prior Year Amounts Deobligated,
      Used to Fund Current Year
      Obligations                                                     0.8       0.3
 Carryover from Prior Year                                          104.1       8.3
 Spending Authority from Offsetting Collections                       0.3         -
 No-Year Funds                                                        4.0         -
 Borrowing Authority Used                                             1.8       6.3

 Total Sources of Funds                                           $337.5     $275.1

 Note – The above amounts do not include credit subsidy re-estimates.


                                                                                                                       7
In FY 2011, the CDFI Fund allocated $226.5 million in appropriated funds as follows:

                              Funding Allocation
                             (Amounts in Millions)

                                                  FY 2011        FY 2010
      Amounts Funded
           CDFI Program                              $169.7        $107.6
           BEA Program                                 21.9          25.0
           NACA Program                                12.0          12.0
           Capital Magnet Fund                            -          80.0
           FEC Pilot Program                              -           1.0
           FEC Pilot Program (Hawaii)                     -           3.1
           CDFI Bond Guarantee Program                    -          13.5
           NMTC & Administrative Costs                 22.9          18.0
       Total Amounts Funded                           226.5         260.2
       Less Amounts Not Obligated 1                    35.5         104.1
      Total Funding Used                             $191.0        $156.1




 1
  In FY 2010, the CDFI Fund carried over $104.1 million which included $80.0
 million from the Capital Magnet Fund, $13.5 million from the Bond Guarantee
 Program, $4.6 million from the CDFI Program, $1.1 million from the NACA
 Program, $4.1 million for the FEC and FEC Hawaii Programs, $0.3 million for the
 BEA Program, and $0.5 million for Program Administration.


 In FY 2011, the CDFI Fund carried over $35.5 million which included $7.0 million
 from the CDFI Program, $21.9 million from the BEA Program, $0.6 million from the
 NACA Program, and $6.0 million for Program Administration.




                                                                                       8
                              Percent of Amounts Funded in FY 2011




                                       Administrative Costs,
                                             10.1%


            Native Initiatives, 5.3%




BEA Program, 9.7%




                                                                     CDFI Program, 74.9%




                                                                                           9
Organization of the CDFI Fund

The CDFI Fund’s organizational structure consists of the following: Director; Deputy Director; Legislative and
External Affairs Manager; Legal Counsel; Chief Financial Officer; CDFI and Native Programs Manager; Operations
Manager; NMTC and BEA Programs Manager; Certification, Compliance Monitoring, and Evaluation Manager;
Financial Strategies and Research Manager; Training and Outreach Manager; Chief Information Officer; Capital
Magnet Fund Manager; and CDFI Bond Guarantee Program Manager. The organization chart of the CDFI Fund is
shown below.


                          Community Development Financial Institutions Fund
                                        Organizational Chart
                                          September 2011




                                                                                                             10
Program Discussion
and Analysis




                     11
Community Development Financial Institutions Program
Through the Community Development Financial Institutions Program (CDFI Program), the CDFI Fund uses federal
resources to invest in and build the capacity of CDFIs to serve low-income people and communities lacking adequate
access to affordable financial products and services. The CDFI Program provides monetary awards for Financial
Assistance (FA) and Technical Assistance (TA). CDFIs use FA awards to further goals such as:

    •   Economic development (job creation, business development, and commercial real estate development);

    •   Affordable housing (housing development and homeownership); and

    •   Community development financial services (provision of basic banking services and financial literacy training to
        underserved communities).

In FY 2011, the CDFI Program awarded $167.3 million to CDFIs - $142.3 million in CDFI Fund Program awards and
$25.0 million in HHFI awards. The CDFI Program used $4.9 million of the FY 2010 funds and $162.4 million of the
FY 2011 funds for its FY 2011 awards. The total FY 2011 funding of $169.7 million was allocated as follows: $137.4
million for the CDFI Program awards, $25.0 million for the HHFFI awards and $7.3 million for the Capacity Building
contracts. In FY 2011, The CDFI Program awarded $0.9 million for the Capacity Building contracts; the remainder
of $6.4 million was carried over into FY 2012. The breakdown of $142.3 million included (1) $139.2 million in FA
awards to 118 organizations, including 32 Small and Emerging CDFI Assistance (SECA) awards for $17.2 million
and 86 Core awards for $122 million; and (2) $3.1 million in TA awards to 37 organizations.

Certified CDFIs
A certified CDFI is a legal entity that has been certified by the CDFI Fund as meeting the six statutory and regulatory
criteria listed earlier in this report.

In addition to seeking certification to receive FA and TA awards from the CDFI Fund, organizations pursue CDFI
certification in order to leverage CDFI Funds from non-federal sources such as banks, foundations, and state and local
governments.

The certification of organizations as CDFIs has been a long-standing activity of the CDFI Fund. At the end of FY
2011, there were 963 certified CDFIs serving rural and urban areas in all 50 states and the District of Columbia,
Guam, Puerto Rico, and the U.S. Virgin Islands.

Breakdown of Types of Certified CDFIs
There are four main types of CDFIs, and each provides a different mix of products geared to reach specific customers:

    •   Community development banks are for-profit corporations that provide capital to rebuild economically
        distressed communities through targeted lending and investment;

    •   Community development credit unions are non-profit cooperatives owned by members that promote
        ownership of assets and savings and provide affordable credit and retail financial services to low-income
        people;

    •   Community development loan funds (usually non-profits) provide financing and development services to
        businesses, organizations and individuals in low-income urban and rural areas and can be further categorized
        based on the type of client served: micro-enterprise, small business, housing, and community service
        organizations; and
                                                                                                                          12
    •   Community development venture capital funds include both for-profit and non-profit organizations that
        provide equity and debt-with-equity features for businesses in distressed communities.


CDFI Customers
CDFIs serve a wide range of customers, including:

    •   Small business owners who provide employment opportunities and needed services to disadvantaged
        communities;

    •   Affordable housing developers who construct and rehabilitate homes in low-income communities;

    •   Community facilities used to provide child care, health care, education, and social services in underserved
        communities;

    •   Commercial real estate developers who finance the acquisition, construction, or rehabilitation of retail, office,
        industrial, and community facility space in low-income communities; and

    •   Individuals who are provided affordable banking services including checking and savings accounts,
        alternatives to predatory financial companies, and mortgages and other kinds of loans.

Financial Assistance

The CDFI Program consists of two components, Financial Assistance (FA) awards and Technical Assistance (TA)
awards. The FA component is by far the most subscribed and consists of two categories: Category 1 – Small and
Emerging CDFI Assistance (SECA); and Category 2 – Core. Through the CDFI Program, the CDFI Fund invests in
CDFIs that provide financing and related services to communities and populations lacking access to credit, capital, and
financial services.

Applicants to the CDFI Program must demonstrate they have the financial and managerial capacity to impact the
communities they serve. Applicants must: 1) be able to provide affordable and appropriate financial products and
services; 2) be a viable financial institution; 3) be able to use CDFI Fund awards effectively; and 4) have the ability to
leverage their awards with non-federal funding.

The CDFI Program makes FA awards in the form of equity investments, loans, deposits, or grants. FA awards enable
CDFIs to leverage private capital for affordable financial products and services in economically distressed markets.
CDFIs respond to this demand providing loans, investments, training, technical assistance, and basic financial services
such as checking or savings accounts.

FY 2011 FA Awards

In FY 2011, the CDFI Fund received applications from 273 organizations, requesting a total of more than $454.2 million
in FA awards, including 78 SECA applicants requesting $51.2 million and 195 Core applicants seeking $403 million.

The CDFI Fund awarded a total of $139.2 million to 118 organizations in FY 2011, including 32 SECA awards totaling
$17.2 million and 86 Core awards totaling $122 million.




                                                                                                                          13
                                             Table 1 – FY 2011 FA Awards
                                                    Awards                                   Amount Awarded
         Core                                                 86                                         $122,015,791
         SECA                                                           32                                        $17,137,965

         Totals                                                     118                                       $139,153,756


The following graph shows the total amount of FA funds requested and awarded since FY 2005. The CDFI Program has
consistently received more applications than it can fund. In FY 2011, the CDFI Fund capped awards at $1.5 million in an
attempt to meet the heavy demand. By capping award amounts, the CDFI Fund was able to make more awards.


                       CDFI Financial Assistance: Amounts Requested and Awarded
                                                ($millions)

                $500
                                                                                                                  $460          $454
                $450

                $400

                $350

                $300
                                                                                      $270
                                                                                                    $259
                $250
                                                                        $200
                $200
                                $160
                                             $147
                $150                                      $138


                $100
                                                                                                                          $139
                                                                                              $90
                 $50                                                                                       $102
                          $33          $25                       $52            $53
                  $0                                $26
                         2005      2006         2007             2008          2009      ARRA*             2010          2011
                                         Fiscal Years

                                                      Dollars Awarded          Dollars Requested




*In February 2009, the CDFI Program received $90 million in funds through the American Recovery and Reinvestment Act (ARRA)
to enhance the lending capacity of CDFIs.


Healthy Food Financing Initiative
In FY 2011, the CDFI Fund launched the new Healthy Food Financing Initiative (HFFI) in coordination with efforts
being undertaken by the Department of Agriculture and the Department of Health and Human Services (HHS), and
provided FA awards through the CDFI Program to support the initiative. The HFFI represents the federal
government’s first coordinated step to eliminate “food deserts” – low-income urban and rural areas in the United
                                                                                                                                       14
States with limited access to affordable and nutritious food – by promoting a wide range of interventions that expand
the supply of and demand for nutritious foods, including increasing the distribution of agricultural products;
developing and equipping grocery stores; and strengthening producer-to-consumer relationships. In addition, the
HFFI is part of a larger effort to create quality jobs and promote comprehensive community development strategies to
revitalize distressed neighborhoods into healthy and vibrant communities of opportunity. FA awards made through
the HFFI can be used to make loans and investments and to provide development services that promote and increase
access to healthy food options in low-income communities.

In FY 2011, the CDFI Fund awarded $25 million in FA awards through the CDFI Program to 12 organizations to
finance healthy food activities. These CDFIs will use the funds to enhance their capacity to make investments in a
range of healthy food projects serving food deserts, including grocery stores, mobile food retailers, farmers markets,
cooperatives, corner stores, bodegas, and stores that sell other food and non-food items along with a full range of
healthy foods. Six awardees primarily serve major urban markets, four primarily serve minor urban markets, and two
primarily serve rural areas.

Technical Assistance
Through the Technical Assistance (TA) component of the CDFI Program, the CDFI Fund provides grants to build the
capacity of both start-up and existing CDFIs. TA grant funds can be used for items such as staff salaries, benefits,
staff training, professional services, supplies, and equipment. Applicants often request funds to analyze their target
markets, develop lending policies and procedures, or to build staff lending capacity.

More established CDFIs also use TA grants to build their capacity to provide new products, serve current target
markets in new ways, or enhance the efficiency of their operations with upgraded computer hardware and software.

FY 2011 TA Awards
In FY 2011, the CDFI Fund received 114 applications requesting a total of more than $10.8 million in TA-only grants.
Thirty-seven organizations received awards totaling $3.1 million. The following graph shows the total amount of TA
awards since 2003.




                                                                                                                       15
                                 Total Amount of TA Awards ($millions)

        $5.00                $4.9

        $4.50


        $4.00


        $3.50
                                                                                                          $3.1
        $3.00
                                                                                                $2.6
        $2.50                                                                         $2.4
                                        $2.1                                $2.0
        $2.00                                      $1.9
                                                               $1.5
        $1.50


        $1.00


        $0.50      $0.3
        $0.00
                2003      2004      2005       2006       2007           2008      2009      2010      2011

                                                          Fiscal Years


CDFI Program Performance
CDFI Program awardees report their annual performance to the CDFI Fund through the CDFI Fund’s Web-based
reporting system, the Community Investment Impact System (CIIS). Each awardee has 180 days from its fiscal year end
to report through CIIS. This time allows the awardee to complete its annual audit and enables the CDFI Fund to verify
reported information against the audit.

The FY 2011 performance information provided here pertains to each awardee’s performance results for program year
2010. It should also be noted that the lag in performance reporting reflects the time it takes to deploy funds and make
investments for which actual and projected results can be estimated. The delay in performance reporting reflects the
length of time from notice of award to award disbursement, the time it takes for an awardee to deploy the funds, and the
additional time it takes to compute and report awardee impact information to the CDFI Fund’s CIIS reporting system.
The FY 2011 performance results reported in the table below reflect program outcomes and activities for 2010 and are
based on information entered into CIIS by reporting CDFI Program awardees.

In FY 2011, CDFI awardees reported originating 16,313 loans or investments totaling $1.2 billion, based on their
portfolio of activities in 2010. This includes $357.3 million for 5,010 home improvement and purchase loans, $296.8
million for 5,233 business and microenterprise loans, and $289.2 million for 679 residential real estate transactions.
These data on the amount and number of loans or investments originated provide baselines for benchmarking and
targeting program performance in the forthcoming fiscal year. CDFI Program awardees helped provide funds for
projects that created or maintained 25,199 jobs and leveraged $1.5 billion in private investment. In addition, real
estate loans financed 17,778 affordable housing units, including 15,979 rental units and 1,799 owner units. CDFIs
also provided extensive financial products and services to unbanked and underserved individuals by opening 6,537
new bank accounts and maintaining 7,007 Individual Development Accounts totaling $9,131,382 in savings. CDFIs
                                                                                                                       16
reported providing financial literacy counseling and other training opportunities to 177,252 individuals. Finally, loans
and investments originated by CDFIs over the last three years were located in more than 22 percent of eligible census
tracts, exceeding the target of 10 percent.

                            Annual Performance of CDFI Program Awardees for FY 2011
                                  (Based on Program Activities Reported in 2010)

Lending and Investing Activity
Amount of Total Loans/Investments Originated                                          $1,228,117,325
Number of Total Loans/Investments Originated                                                  16,313

         Business and Microenterprise Originations                                      $296,837,269
         Number of Originations                                                                5,233

         Consumer Originations 1                                                          $16,272,322
         Number of Originations                                                                 4,445

         Home Improvement and Home Purchase Originations                                $357,299,821
         Number of Originations                                                                5,010

         Residential Real Estate Originations                                           $289,201,894
         Number of Originations                                                                  679

         Commercial Real Estate Originations                                            $151,959,887
         Number of Originations                                                                  186

         All Other Originations                                                         $116,546,132
         Number of Originations                                                                  760

Jobs At End of Reporting Period                                                                 25,199

Affordable Housing Units Financed                                                               17,778
       Rental Units                                                                             15,979
       Owner Units                                                                               1,799

Businesses Financed 2                                                                            5,233

Percent of Eligible Areas Served 3                                                              22.1%

Financial Access and Literacy
Accounts Opened to the Unbanked                                                                 6,537
Open Individual Development Accounts                                                            7,007
Dollars Saved in Individual Development Accounts                                           $9,131,382
Individuals Served By Financial Literacy or Other Training                                    177,252




1
  Due to changes in reporting requirements during FY 2011, not all institutions reported consumer loan originations for this year.
The actual value of consumer originations is likely to be higher.
2
  The Business Financed estimate would change if multiple financing to the same business were netted out and would total only
2,390 vs. the simple number of business originations as above.
3
  Defined as the percentage of all eligible Census tracts receiving at least one origination in the past three calendar years.
                                                                                                                               17
Native Initiatives
In November 2001, the CDFI Fund published the “Report of the Native American Lending Study,” which formed the
basis for creating the Native Initiatives. The study evaluated access to credit, capital, and financial services in Native
American, Alaskan Native, and Native Hawaiian communities and identified barriers to providing such financing. To
address these barriers, the Native Initiatives increase opportunities to access credit, capital, and financial services by
creating or expanding Native CDFIs primarily serving Native Communities, helping to create Native CDFIs as well as
to strengthen the operational capacity of existing Native CDFIs primarily serving Native Communities.
The Native Initiatives are based on six objectives:

        1) Expanding training opportunities in community development finance for Native Communities;

        2) Providing technical assistance to overcome barriers to creating and sustaining Native CDFIs;

        3) Making technical and financial assistance awards to meet the needs of existing or proposed Native
           CDFIs;

        4) Encouraging mainstream financial institutions to increase their financial products and services in Native
           Communities;

        5) Supporting financial education activities in Native Communities; and

        6) Facilitating networking and in-depth training forums in community development finance.

These objectives are achieved through two principal strategies. The first strategy is to provide funding through the
Native American CDFI Assistance Program (NACA Program), which is designed to increase the number and capacity
of existing or new Native CDFIs. The second strategy is to provide training to help create new Native CDFIs or
strengthen the operational capacity of existing ones.

A Native American CDFI is defined as a CDFI with greater than 50 percent of its activities directed to Native
American Communities.

NACA Program FY 2011

Through the NACA Program, the CDFI Fund provides two types of funding: 1) Financial Assistance (FA) awards
which are only available to certified CDFIs; and 2) Technical Assistance (TA) grants, which are available to certified
CDFIs, Emerging Native CDFIs, and Sponsoring Entities.
FA awards are primarily used for financing capital. TA grants are generally used to acquire products or services
including computer technology, staff training, professional services, such as market analysis, and support for other
general capacity-building activities. NACA awardees use their awards to increase their capacity to serve their Target
Market and/or to create/become certified CDFIs.
The performance results reported by NACA Program awardees in FY 2011 show Native CDFIs originated 1,004
loans or investments totaling $14,727,069 based on their portfolio of activities in 2010. These baseline data on the
amount and number of loans or investments originated will be used for benchmarking and targeting program
performance in the forthcoming fiscal year.

In FY 2011, the CDFI Fund received 82 NACA eligible applications requesting a total of $29.4 million for both FA and
TA funding. The CDFI Fund awarded 35 organizations a total of $11.8 million for both FA and TA funding in FY 2011.
The $11.8 million in awards were funded with $1 million of FY 2010 funds and $10.8 of FY 2011 funds. The
remaining $1.2 million FY 2011 funds were allocated for the Capacity Building contracts.
                                                                                                                       18
FY 2011 NACA FA Awards
In FY 2011, the CDFI Fund awarded 14 organizations totaling approximately $9.1 million in FA. The CDFI Fund
capped the FA awards in FY 2011 at $725,000. As a result, the CDFI Fund was able to make more FA awards. The
CDFI Fund assumes that the demand will remain high as an increasing number of Native CDFIs put into practice the
CDFI Fund’s training and continue to build their lending programs.

Technical Assistance Grants

Through the NACA Program, the CDFI Fund provides TA grants, which are available to certified CDFIs, Emerging
Native CDFIs, and Sponsoring Entities. Unique to the NACA Program, Sponsoring Entities create and support
fledgling Native organizations as they move toward certification.
TA grants help awardees build their capacity to provide financial services and products. Awardees can use TA grants
to: 1) acquire products or services such as technology or staff and board training; 2) engage consulting services to
undertake activities like a market analysis or development of lending policies and procedures; 3) pay for staff time to
conduct capacity-building activities such as website development; and 4) support on-going operational activities such
as staff salary, rent, and utilities.

FY 2011 NACA TA Awards
In FY 2011, 21 organizations received TA awards totaling $2.7 million.

Training Initiatives

Through the Native Initiatives, the CDFI Fund engages contractors to provide training and technical assistance to
existing and emerging Native CDFIs. The Expanding Native Opportunities component of the Native Initiatives
involves three types of training: 1) Native Communities Financing Initiatives; 2) Native Financial Skills and
Enterprise Initiatives; and 3) Native Individual Development Account Initiatives. The Native Communities Financing
Initiatives are accompanied by technical assistance, providing up to six days of on-site assistance to participants.

The CDFI Fund has contracted with two organizations to provide a series of workshops and technical assistance to
participants in the three training initiatives.




                                                                                                                    19
Capacity Building Initiative
The Capacity Building Initiative is the CDFI Fund’s primary means of developing and growing the nation’s CDFI
industry. Through the Capacity Building Initiative, both certified CDFIs and emerging CDFIs nationwide are eligible
to access targeted training and technical assistance. Industry-wide training targets key issues currently affecting
CDFIs and the communities they serve, including affordable housing and business lending, portfolio management,
risk assessment, foreclosure prevention, general business operations, and liquidity and capitalization challenges.
Training is offered at locations near where CDFIs work, and technical assistance is often provided on-site. Capacity
building plans are designed around the specific needs of participating CDFIs. All CDFIs are able to take advantage of
online resource banks hosted on the CDFI Fund website.

Specific training series launched in FY 2011 include:

•The Foreclosure Solutions series, provided by NeighborWorks® America. This series helps CDFIs build their
capacity to operate highly-effective foreclosure intervention programs. The series offers training, technical assistance,
and access to tools and resources. Through this series, participants are improving their understanding of foreclosure
intervention strategies and effectively implementing these strategies in their communities. In FY 2011, 13 participants
attended the Foreclosure Solutions training events.

•The Portfolio Management series, provided by NeighborWorks®America. This series helps CDFIs improve the
capacity to manage their portfolios, including assessing and reducing portfolio risk. Participants are learning
techniques and strategies through a combination of training, technical assistance, organizational assessments and an
online resource bank. In FY 2011, 86 participants attended the Portfolio Management training events, 345
participated in webinars, and 62 CDFIs received technical assistance.
•The CDFI Capitalization series, provided by NeighborWorks®America. This series helps CDFIs learn strategies
and techniques for increasing their capitalization and improving their liquidity. Participants have access to training,
technical assistance, organizational assessments, and an online resource bank. In FY 2011, 38 participants attended
the CDFI Capitalization training events, 218 participated in webinars, and six CDFIs received technical assistance.

•The Financing Healthy Food Options series, provided by Opportunity Finance Network (OFN). This series supports
CDFIs engaged in the eradication of food deserts in their target markets. Training, technical assistance, research and
specialized resources are available to participants. In FY 2011, 75 participants attended the Financing Healthy Food
Options training events and ten CDFIs received technical assistance.

•The Leadership Journey: Native CDFI Growth and Excellence series, provided by NeighborWorks® America. This
series will support the continued growth and long-term sustainability of experienced Native CDFIs by providing the
forum, tools, and resources for Native CDFI leaders to identify and address the critical challenges of their
organizations. The first training will take place in February 2012.




                                                                                                                      20
New Markets Tax Credit Program
The New Markets Tax Credit Program (NMTC Program) stimulates capital investment in low-income communities
nationwide. The program permits taxpayers to receive a credit against federal income taxes for making Qualified
Equity Investments (QEIs) in designated Community Development Entities (CDEs). Substantially all of the
qualified equity investment must in turn be used by the CDE to provide investments in low-income communities.

The CDFI Fund is responsible for awarding tax credit allocations to CDEs. It does so through a competitive
award process. This process ensures that the most qualified organizations receive first consideration for this
limited resource.

The tax credit provided to the investor totals 39 percent of the amount of the investment made in a CDE and is
claimed over a seven-year credit allowance period. In each of the first three years, the investor receives a credit
equal to five percent of the total amount paid for the stock or capital interest at the time of purchase. For the final
four years, the value of the credit is six percent annually. Investors may not redeem their investments prior to the
conclusion of the seven-year period.

To qualify as a CDE, an entity must be a domestic corporation or partnership that: (1) has a mission of serving,
or providing investment capital for, low-income communities or low-income persons; (2) maintains
accountability to residents of low-income communities through their representation on a governing board of or
advisory board to the entity; and (3) has been certified as a CDE by the CDFI Fund. As of September 30, 2011,
there were 5,298 organizations certified as CDEs by the CDFI Fund, compared to 4,558 one year earlier.

The NMTC Program was authorized under the Community Renewal Tax Relief Act of 2000. The statute
included $15 billion in allocation authority for seven years. Since the NMTC Program was initially enacted, it
has been reauthorized three times; most recently, the Tax Relief, Unemployment Insurance Reauthorization and
Job Creation Act of 2010 extended the program through 2011. Additionally, the Hurricane Katrina Gulf
Opportunity (GO) Zone Act of 2005 authorized an additional $1 billion in allocation authority toward the
rebuilding and renewal of the GO Zone, and the American Recovery and Reinvestment Act (Recovery Act)
provided an additional $3 billion in allocation authority to assist in the economic recovery. Combined, Congress
has authorized the CDFI Fund to award $33 billion in NMTC authority through 2011.

Additionally, the Tax Relief and Health Care Act of 2006 required that Treasury prescribe regulations to ensure
that non-metropolitan counties receive a proportional allocation of Qualified Equity Investments (QEIs). The
CDFI Fund’s process for ensuring proportional non-metropolitan investment is described in the NMTC Program
calendar year (CY) 2011 Notice of Allocation Availability (NOAA).




                                                                                                                   21
Results of the First Eight NMTC Allocation Rounds
NMTC allocations are awarded annually through a competitive process. Calendar year 2002 was the first year in
which applications for NMTC authority were submitted to the CDFI Fund. To date, the CDFI Fund has
completed eight allocation rounds and has made 594 awards totaling $29.5 billion in allocation authority. This
amount includes the $3 billion of Recovery Act-authorized allocations ($1.5 billion through the 2008 NMTC
allocation round and $1.5 billion through the 2009 NMTC allocation round).


             Applications                               Allocations

                           Amount                                Amount
 Round        Number      (Billions)               Number       (Billions)

    1           345         $25.8                     66          $2.5
    2           271         $30.4                     63          $3.5
    3           208         $22.9                     41          $2.0
    4           254         $28.3                     63          $4.1
    5           258         $27.9                     61          $3.9
    6           239         $21.3                     102         $5.0
    7           249         $22.5                     99          $5.0
    8           250         $23.5                     99          $3.5

 Totals      2,074          $202.6                    594         $29.5


Demand for NMTC authority has been high since the program’s inception, as 2,074 applicants have requested tax
credits supporting a total of more than $202 billion in equity investments – approximately seven times the
amount of allocation authority available for distribution by the CDFI Fund. Through the first eight allocation
rounds, only about 29 percent of applicants were selected to receive an award. The average tax credit allocation
award through the first eight rounds was approximately $49.7 million.

2010 NMTC Allocation Round
In February 2011, the CDFI Fund announced that 99 applicants were awarded $3.5 billion in the NMTC
Allocation Round under the 2010 NMTC allocation authority. The 99 applicants selected to receive awards are
headquartered in 28 different states and the District Columbia, and they anticipate making awards in 47 different
states and the District of Columbia.

These 99 allocatees have committed to achieving results above and beyond minimal program requirements:

    •     Ninety-seven of the 99 allocatees indicated that 100 percent of their investment dollars would be made
          either in the form of equity, equity equivalent financing, or debt that is at least 50 percent below market
          and/or is characterized by at least five concessionary features; with the two remaining allocatees
          committing to providing debt that is at least 33 percent below market and/or characterized by at least
          four concessionary features. Such features include, among other things, subordinated debt, reduced

                                                                                                                   22
        origination fees, higher than standard loan-to-value ratios, lower than standard debt service coverage
        ratios, non-traditional collateral, and longer than standard amortization periods.

    •   All 99 of the allocatees committed to providing at least 75 percent of their investments to areas of higher
        economic distress (and/or areas targeted for development by other government programs) than are
        minimally required under NMTC Program rules.

    •   All 99 of the allocatees indicated that they will invest more than the minimally required 85 percent of
        QEI dollars into Qualified Low-Income Community Investments (QLICIs), and 98 of the 99 allocatees
        indicated that they would invest at least 95 percent of QEI dollars into QLICIs. In real dollars, this
        means that at least $630 million above and beyond what is minimally required by the NMTC Program
        rules will be invested into low-income communities.

As detailed in the 2010 Notice of Allocation Authority (NOAA), the CDFI Fund sought to ensure that: (1) an
appropriate proportion of awards were provided to “Rural CDEs”; and (2) that at least 20 percent of all dollars
invested by allocatees under the 2010 allocation round are invested in non-metropolitan counties. With respect
to the first objective, nine allocatees, receiving allocations totaling $450 million, met the criteria for “Rural
CDE” designation. In total, 46 of the 99 allocatees are required to deploy some or all of their investments in non-
metropolitan counties. This ensures that approximately $682 million will be deployed in non-metropolitan
counties after removing costs for CDE administrative expenses.

2011 NMTC Allocation Round

In FY 2011, the CDFI Fund began the application review process for the 2011 allocation round. The Tax Relief,
Unemployment Insurance Reauthorization and Job Creation Act of 2010 provided $3.5 billion in allocation
authority for the 2011 round. Applications for the 2011 allocation round were due on July 27, 2011. The CDFI
Fund received 314 applications for the 2011 NMTC allocation round, an increase of 25.6 percent over the 250
applications received in 2010. The applications requested a total of $26.7 billion in NMTC allocation authority,
an increase of approximately $3.2 billion over the amount requested in 2010.

NMTC Evaluation Research
In 2007, the CDFI Fund engaged the Urban Institute to conduct a multi-year comprehensive evaluation of NMTC
Program outcomes. The research design for the evaluation includes: (1) a review of relevant economic
development, performance measurement, and tax credit literature; (2) informal discussions with key NMTC
stakeholders; (3) an analysis of existing NMTC administrative data; (4) development of a typology of NMTC
projects; (5) an examination of secondary public and private data; and (6) a random sample of case study data
collection through phone and online surveys with CDEs, community officials, NMTC investors, and
borrowers/investees. The Urban Institute has produced a series of reports for the CDFI Fund, detailing the
methodology for the primary surveys that took place in FY 2011. The Urban Institute contract has been extended
to March 31, 2012. Based on the revised schedule, the CDFI Fund will receive the final report in February 2012.

The CDFI Fund’s Financial Strategies and Research office made important improvements to the CIIS
data reporting system in FY 2011 to improve the quality of data being reported by CDEs, including
expanding the data collected on fees associated with NMTC transactions.




                                                                                                                 23
NMTC Activities to Date
Allocation agreements were executed with each of the 594 allocatees from the first eight rounds. As of
September 30, 2011, allocatees had reported raising QEIs totaling more than $23.8 billion. This figure represents
almost 80.7 percent of the $29.5 billion in allocation authority issued to CDEs to date. QEI investment has
increased each year except in 2009. In calendar year 2010, $4.9 billion in QEIs were raised, the largest amount
ever and a 75 percent increase over the $2.8 billion raised in 2009.

Allocatees report QEI and QLICI activity to the CDFI Fund through the Allocation Tracking System (ATS) and
Community Investment Impact System (CIIS). Allocatees that have raised QEIs are required to report these
investments within 60 days via ATS. Within six months of the end of their fiscal year end, CDEs must complete
an annual Institution Level Report (ILR) via CIIS. Allocatees that have made QLICIs are also required to submit
an annual Transaction Level Report (TLR) in CIIS. An allocatee’s ILR, TLR, and audited financial statements
are due 180 days after the end of its fiscal year.

All results in the chart below represent the allocatees’ CIIS data reported for fiscal year 2011 (program year 2010).
As shown in the table below, for this program year allocatees reported making $4.7 billion of loans and investments
in Qualified Active Low Income Community Businesses (QALICBs), and a total of $20.2 billion of loans and
investments in QALICBs since the program’s inception. In FY 2011, 49.8 percent of the dollars invested were
invested in “real estate QALICBs” (i.e., businesses that develop or lease real property for use by others). In addition,
47.3 percent of the dollars were invested in “non-real estate QALICBs” (i.e., operating businesses) in low-income
communities, and the remaining 2.9 percent of investments were direct investments into other CDEs. Allocatees
reported providing $1 million in financial counseling and other services to 4,027 businesses in low-income
communities. Adding together all QLICIs yields a grand total of $20.9 billion of cumulative investments was
reported in CIIS since 2003. The data reported in FY 2011 represents the allocatees’ 2010 activities.

                        Annual Performance of NMTC Program Allocatees for FY 2011
                               (Based on Program Activities Reported in 2010)

Lending and Investing Activity
Total Qualified Low-Income Community Investments (QLICI)                            $4,684,702,683
Number of QLICI                                                                              1,033

        Real Estate Activity (Investments in QALICB 1)                              $2,333,844,228
        Number of QLICI                                                                        500

        Non-Real Estate Activity (Investments in QALICB)                            $2,217,817,710
        Number of QLICI                                                                        496

        Loans/Investments Made to Other
        Community Development Entities (CDEs)                                         $133,040,745
        Number of QLICI                                                                         37

Percent of Loans/Investments in Severely Distressed Communities 2                             72.4%

Jobs at Reporting Period End                                                                  30,075

1
 Qualified Active Low-Income Community Businesses
2
 “Severely distressed” communities include Census tracts with poverty rates above 30 percent; or median family incomes
below 60 percent of the metropolitan or state median; or unemployment rates greater than 1.5 times the national average.
                                                                                                                       24
Projected Construction Jobs                  37,669

Affordable Housing Units Financed             1,305
       Rental Units                             714
       Owner Units                              591

Square Feet of Commercial Real Estate     15,482,023
       Manufacturing                       1,172,123
       Office                              9,494,711
       Retail                              4,815,189

Businesses Financed                             496

Financial Counseling and Other Services
Total Investments                         $1,044,290
Number of Businesses Served                    4,027




                                                       25
                             Cumulative Performance of NMTC Program Allocatees 1
                              (Based on Program Activities Reported in 2003-2010)

Lending and Investing Activity
Total Qualified Low-Income Community Investments (QLICI)                            $20,864,397,009 2
Number of QLICI                                                                                5,561

         Real Estate Activity (Investments in QALICB)                                $12,516,513,081
         Number of QLICI                                                                       2,751

         Non-Real Estate Activity (Investments in QALICB)                              $7,672,600,485
         Number of QLICI                                                                        2,588

         Loans/Investments Made to Other
         Community Development Entities (CDEs)                                           $675,283,443
         Number of QLICI                                                                          222

Percent of Loans/Investments in Severely Distressed Communities                                 71.8%

Jobs at Reporting Period End                                                                    97,078

Projected Construction Jobs                                                                    205,296

Affordable Housing Units Financed                                                                 5,125
       Rental Units                                                                               2,517
       Owner Units                                                                                2,608

Square Feet of Commercial Real Estate                                                       92,856,324
       Manufacturing                                                                        12,389,663
       Office                                                                               43,121,982
       Retail                                                                               37,344,679

Businesses Financed 3                                                                             1,556

Financial Counseling and Other Services
Total Investments                                                                         $32,196,386
Number of Businesses Served                                                                    25,972




1
  Numbers of Qualified Low-Income Community Investments (QLICI) refer to the number of transactions, not the number
of New Markets Tax Credit projects.
2
  An additional $36,623,737 in QLICI was not reported into any of the three categories below.
3
  The cumulative estimate of businesses financed nets out those businesses that have reported in multiple years as part of the
same project.
                                                                                                                          26
Bank Enterprise Award Program
The Bank Enterprise Award Program (BEA Program) recognizes the key role played by traditional financial
institutions in community development lending and investing. Through the BEA Program, the CDFI Fund provides
monetary awards to regulated banks and thrifts for increasing their investments and financial activities in
economically distressed communities (those with high poverty and unemployment) and/or investments in CDFIs.
The size of the award is a percentage of the increase in activities from one annual reporting period to the next.

Providing monetary awards for community reinvestment leverages the CDFI Fund’s dollars and puts more capital to
work in distressed communities throughout the nation. The BEA Program is highly targeted to areas with larger
populations. In general, approximately 4,000 Census Tracts qualify as distressed communities under the program.

BEA Program awards are based on the increase in the amount of Qualified Activities from a Baseline Period to a
later Assessment Period (the corresponding time in the following year). Qualified Activities consist of financial
assistance provided to certified CDFIs, loans made by financial institutions in distressed communities (for example,
affordable housing loans, small business loans, and real estate development loans), and financial services provided in
distressed communities (such as access to automated teller machines and opening of savings accounts).

Promoting CDFI Investments through the BEA Program
The BEA Program prioritizes three main types of bank activities. The first priority is to increase banks' financial
support of CDFIs in order to build CDFI self-sufficiency and capacity (referred to as CDFI-Related Activities).
The second and third priorities are to build the capacity of FDIC-insured depository institutions to expand their
community development lending and investments in severely underserved areas (referred to as Distressed
Community Financing Activities and Service Activities, respectively).

The CDFI Fund makes awards to applicants in the CDFI-Related priority before making awards to applicants in
the Distressed Community Financing Activities priority and Service Activities priority. The prospect of a BEA
Program award encourages banks to achieve this first priority by providing low-cost capital and operating
support to CDFIs, which has helped to create and sustain a network of CDFIs. CDFIs serve as conduits for
banks to better serve highly distressed neighborhoods.

Eligibility
All FDIC-insured depository institutions are eligible to apply for a BEA Program award. As stated above, the
BEA Program rewards actual increases in the dollar volume of Qualified Activities from a Baseline Period to a
later Assessment Period. Qualified Activities for each of the three main types of bank activities include:

        1) CDFI-Related Activities: Equity investments (grants, stock purchases, purchases of partnership
           interests, limited liability company membership interests, or equity-like loans); and CDFI support
           activities (loans, deposits or technical assistance) to certified CDFIs (referred to as CDFI Partners).

        2) Distressed Community Financing Activities: Loans or investments for affordable home mortgages,
           affordable housing development, education, home improvement, small businesses, and commercial
           real estate development in economically distressed communities.

        3) Service Activities: Deposits, financial services (such as check-cashing, money orders, or certified
           checks), targeted retail savings/investment products (such as electronic transfer accounts - ETAs),
           targeted financial services (such as individual development accounts - IDAs), or community services
           provided to low- to moderate-income individuals or the institutions serving them.
                                                                                                                   27
FY 2011 BEA Program Awards
In FY 2011, the CDFI Fund received 82 eligible applications requesting a total of approximately $78 million,
compared to 76 applications requesting a total of approximately $94 million in FY 2010. FY 2011 applicants are
headquartered in 23 states and the District of Columbia, compared to the 20 states and the District of Columbia
represented in the prior year. Due to the delays in finalizing the FY 2011 appropriations, the CDFI Fund’s BEA
Program awards will not be announced until the first quarter of FY 2012.

FY 2011 BEA Community Impact
FY 2011 BEA Program applicants increased their qualified community development activities by $353.6 million
over the prior year’s awardees:

        •   $269.4 million increase in loans and investments in distressed communities;

        •   $80.9 million increase in loans, deposits, and technical assistance to CDFIs; and

        •   $3.3 million increase in the provision of financial services in distressed communities.

The trend of investments in distressed communities and investments in CDFIs by prior years’ BEA awardees is
shown in the Distribution of BEA Program Awards by Category chart.




                                                                                                              28
                                    Distribution of BEA Program Awards
                                           by Category ($millions)

                                                                                                                                  $0.4
         $25.0
                                                                                                      $0.2                        $3.9
                                                                                                      $2.7
         $20.0
                                                                          $5.6

         $15.0

                                                 $1.5                                                                             $20.5
                           $4.2                                                                   $19.4
         $10.0
                                                                         $14.4

                                                 $9.7
          $5.0             $7.6



          $0.0
                        2006                  2007                     2008                    2009                         2010
                                                                    Fiscal Years


                          Distressed Community Financing Services           CDFI Related Activities          Service Activities



* The 2011 BEA Program award announcement is expected during the first quarter of FY 2012.

Financial Education and Counseling Pilot Program
The program goals of the Financial Education and Counseling Pilot Program (FEC Pilot Program) are to identify
successful methods resulting in positive behavioral change for financial empowerment, and to establish program
models for organizations to carry out effective financial education and counseling services to prospective
homebuyers.

In FY 2010, the CDFI Fund was appropriated $4.1 million for the FEC Pilot Program, of which $3.1 million was
specifically appropriated for an award to an organization located in the State of Hawaii and $1 million was
appropriated in FY 2010 for the FEC Pilot Program. The CDFI Fund released the NOFA for this program on
May 28, 2010, and made award determinations in the first quarter of FY 2011. FY 2010 awardees are located in
Florida, Hawaii, New Mexico, and Pennsylvania.

Reporting on program impact will begin in FY 2011. No funding was appropriated for FY 2011.

Capital Magnet Fund
In its inaugural FY 2010 funding round for the Capital Magnet Fund (CMF), the CDFI Fund announced $80
million in competitively awarded grants to 23 CDFIs and qualified non-profit housing organizations serving 38
                                                                                                                                          29
states. The CMF awards will be used to increase capital investment for the development, preservation,
rehabilitation, and purchase of affordable housing for low-, very low-, and extremely low-income families, and
for related economic development activities. The CDFI Fund received a total of 230 applications requesting $1
billion for the FY 2010 CMF funding round. No funding was appropriated for FY 2011.

In FY 2013, the CDFI Fund will baseline awardees' performance reporting. In the first five years, awardees will
be required to report on the leveraging and use of CMF dollars and, once the funds are fully deployed, will report
annually the number of affordable housing units developed, the number/percentage of low-income
renters/owners, and the number/percentage of very low-income renters/owners.

CDFI Bond Guarantee Program
The CDFI Bond Guarantee Program (BGP) was enacted through the Small Business Jobs Act of 2010 on
September 27, 2010. The BGP will provide a 100 percent guarantee by the United States government of bonds
or notes including principal, interest, and call premiums issued by CDFIs or other Qualified Issuers. The
Treasury Department may guarantee up to 10 bonds per year with each guarantee at a minimum of $100 million
and the total guarantee not to exceed $1 billion per year. The maximum maturity of the guaranteed bonds is 30
years and the guarantee authority terminates on September 30, 2014. Section 1703 of the legislation includes
$13.5 million to remain available until September 30, 2012, for the costs of administering the BGP in accordance
with section 1134 of the Small Business Jobs Act which amended the Community Development Banking and
Financial Institutions Act of 1994, 12 U.S.C. 4701 et seq. by adding a new section 114A.

The CDFI Fund is required to implement the program by September 27, 2012. In FY 2011, and through the
publication date of this document, the CDFI Fund has: (1) hired two staff members and is interviewing for vacant
positions; (2) reviewed and analyzed the transcript from a listening session held in September 2011; (3)
published a Request for Public Comments and reviewed the responses received from 61 organizations; (4)
selected a contractor for subsidy rate/credit scoring modeling; and (5) drafted regulations and begun to develop
BGP materials, including the Regulatory Impact Analysis, among others.




                                                                                                               30
                                Status of Financial Management
This section includes the assurance statement required under the Federal Managers’ Financial Integrity Act, a
summary of the results of the FY 2011 financial statement audit, a summary of the financial management
initiatives of the CDFI Fund during FY 2011, and a discussion of the CDFI Fund’s financial position and results
of operations during the past fiscal year.

Management Assurances
The CDFI Fund is responsible for establishing and maintaining effective internal control over financial reporting
and has made a conscientious effort in FY 2011 to meet the internal control requirements of the Federal
Managers’ Financial Integrity Act (FMFIA), the Federal Financial Management Improvement Act (FFMIA),
Office of Management and Budget (OMB) Circular A-123, and the Reports Consolidation Act of 2000. The
CDFI Fund is operating in accordance with the procedures and standards prescribed by the Comptroller General
and OMB guidelines.

The systems of management control for the CDFI Fund offices are designed to ensure that:

(a) Programs achieve their intended results;
(b) Resources are used consistent with overall mission;
(c) Programs and resources are free from waste, fraud, and mismanagement;
(d) Laws and regulations are followed;
(e) Controls are sufficient to minimize any improper or erroneous payments;
(f) Performance information is reliable;
(g) System security is in substantial compliance with all relevant requirements;
(h) Continuity of operations planning in critical areas is sufficient to reduce risk to reasonable
     Levels; and
(I) Financial management systems are in compliance with federal financial systems standards.

For all CDFI Fund responsibilities under my supervision, I provide herein reasonable assurance that the above
listed management control objectives, taken as a whole were achieved by our office during FY 2011, except for
the material weaknesses noted below. Specifically, this assurance is provided with reference to Sections 2 and 4
of the FMFIA. I further assure that the CDFI Fund’s financial management systems are in substantial
compliance with requirements imposed by FFMIA.

My assurance is based on the CDFI Fund’s assessment of management and internal controls, including existing
policies and procedures, knowledge gained from daily management activities, the review of various management
information reports attendant to those activities, reports and reviews by internal and external auditors, our annual
review performed pursuant to the Improper Payments Information Act, and our own understanding of the
requirements imposed by both FMFIA and FFMIA.

The following are the material weaknesses identified by KPMG in the course of its audit of the CDFI Fund’s FY
2011 financial statements, and the CDFI Fund’s management responses.

    1. KPMG found that the CDFI Fund did not consistently follow its policies and procedures related to grant
       disbursements. KPMG recommended that the CDFI Fund refine its policies, procedures, and controls to
       ensure that funds are not disbursed prior to the effective date of the grant agreement and that all grant
       agreements be dated.



                                                                                                                 31
    The CDFI Fund concurs with the recommendation. The CDFI Fund acknowledges that incorrect
    Effective Dates were inserted on a subset of FY 2011 CDFI Program grant agreements, which may lead
    to an impression that some award funds may have been disbursed without prior, required approvals and
    authorizations. We do not believe such to be the case, however, since an award package is not forwarded
    through the disbursement system without proper signatures and approvals, regardless of whether the
    Effective Date is correct or incorrect. As noted in the finding, the auditors did not note any
    misstatement of the CDFI Fund's financial statements as a result of this issue. Going forward, the CDFI
    Fund will take measures to ensure that the correct Effective Date is entered on the date that the CDFI
    Fund signs a grant agreement.

2. KPMG found that the CDFI Fund does not have appropriate procedures and controls in place for the
   programmatic staff and the financial staff to communicate and determine the existence of approved but
   undisbursed awards that would require period-end accrual. KPMG recommended that the CDFI Fund
   implement policies and procedures to identify grant agreements that are effective at year end but have
   not been disbursed and would require expense recognition and accrual under generally accepted
   accounting principles.


    The CDFI Fund concurs with the recommendation. The CDFI Fund has procedures and controls in place
    for programmatic and financial staff to communicate and determine the existence of approved but
    undisbursed Bank Enterprise Awards that require year-end accrual. As CDFI Program grant approvals
    and disbursements usually do not span year-end, similar procedures and controls were not in place for
    these grants. Fiscal year 2011 was an anomaly in that the CDFI Program grants were approved
    significantly later than normal due to budget delays which resulted in approvals and disbursements to
    cross fiscal years. The CDFI Fund will work with our partners in the Office of Financial Management
    and the Bureau of Public Debt to: (1) clarify roles and responsibilities for all parties involved in the
    accrual process and (2) implement policies, procedures and controls to ensure all awards payable are
    properly accrued at year-end.



                                         Donna J. Gambrell




                                        Director, CDFI Fund




                                                                                                        32
Description of the CDFI Fund’s Financial Management System
The CDFI Fund contracts for accounting services through a franchise agreement with the Bureau of the Public
Debt’s Administrative Resource Center (ARC) in Parkersburg, West Virginia. While the ARC maintains the
accounting system relating to the CDFI Fund’s transactions, the CDFI Fund is responsible for the generation of
all source documents and the accuracy of all accounting information.

The CDFI Fund’s financial management system includes the disbursement transactions maintained by ARC in
the accounting system, as well as records maintained and procedures performed by the CDFI Fund’s financial
management staff in the Office of Financial Management. The CDFI Fund’s resource manager and the Treasury
Office of Financial Management (OFM) are responsible for the administrative control of its funds, budget
formulation and execution, and review and analysis of financial information.

Results of FY 2011 Financial Statement Audit
The FY 2011 audit of the CDFI Fund’s financial statements resulted in an unqualified opinion with the following
two material weaknesses: 1. Improvements are needed in policies, procedures, and controls for disbursing
grants, and 2. Improvements are needed in policies, procedures, and controls for identifying grant accruals. The
CDFI Fund Management concurred with these material weaknesses and responses are included in the
Management Assurances Statement.

FY 2011 Financial Management Initiatives
In FY 2011, financial management focus was on continuing to implement the information technology initiatives
identified in FY 2010.

Community Investment Impact System (CIIS)
CIIS is a Web-based system designed to collect an Institution Level Report (ILR) and Transaction Level Report
(TLR) from CDFIs and CDEs. The CIIS data collected from CDFIs include each organization’s profile, financial
position, portfolio, community impacts, development services, other products and services, and compliance
measures. The CIIS data collected from CDEs include each organization’s profile, QEI distribution, portfolio,
loan purchases, and financial counseling and other services.

Cumulatively through FY 2010, CIIS was used by 570 CDFIs and 232 CDEs to report institutional-level data,
with 39 organizations reporting in both categories. Through FY 2010, a cumulative 233 organizations submitted
data on more than 415,000 transactions in CDFI loan/investment portfolios.

In FY 2011, the CDFI Fund used the CIIS data to analyze the CDFIs’ loan and investment portfolios, capital
under management, operating revenues, and overall financial strength to assess the impact of the financial crisis
and recession on the performance of CDFIs. The analysis was published in March 2011 in a document entitled
The Financial Crisis and CDFIs: A Brief Look at 2007-2009 CIIS Data. FY 2011 marked the third time that the
CDFI Fund made the CIIS data available to the public (within the parameters of applicable Federal information
protection, privacy and confidentiality laws).

In accordance with the Transparency Act, the Privacy Act and other applicable laws and regulations, the CDFI
Fund is preparing to release to the public CDFI institutional and transactional level CIIS data for the 2004-2010
reporting years. The last data release for the 2003-2005 reporting period included only data from the Institutional
Level Report (ILR) and took place in December 2007. Since then, the size and scope of the CDFI data have
increased significantly by two orders of magnitude as it now includes detailed Transaction-Level Report (TLR)
data.
                                                                                                               33
In order to comply with the Privacy Act, any personal information identifying borrowers as well as their race,
gender, etc. has been suppressed. In addition, in order to ensure the anonymity of borrowers and investors all
location information has been limited to city, state, five-digit zip code, and Census tract. Additional safeguards
are also in place.

The main CIIS data files have been combined into four files:

1. The Institutional Level Report (ILR) is required of all awardees and contains basic information on an
organization’s financials, staffing levels and social impact metrics.
2. The Financial Transactional Level Report (TLR) contains detailed financial information including loan rates
and terms, social impact metrics, and transaction status (e.g. delinquencies, charge-offs, etc.), and is required of
most awardees.
3. TLR Address: Transaction Level Report contains the physical location (city, state, zip, and Census tract) of all
applicable transactions included in the TLR Financial file.
4. Portfolio Summary File contains summary data on loans originated and total portfolio outstanding. This file
allows comparison of ILR and TLR data across all CDFIs.

The CDFI Fund expects to complete this data release by December 2011.

Use of Grants.gov for Paperless Processing of Grant Applications
The Federal Financial Assistance Management Improvement Act (FFAMIA) requires all federal grant-making
agencies to migrate 100 percent of their electronic grant program applications to the Grants.gov system
administered by the Department of Health and Human Services. In compliance with the FFAMIA, CDFI Fund
ensured that all FY 2011 grant applications were processed electronically through Grants.gov. CDFI Fund
intends to continue working with Grants.gov for its future grant awards.

Migration to an Award Management Information System for Internal Application Processing
The FFAMIA requires that federal grant-making agencies migrate their electronic grant processing systems to
one of three federally selected Centers of Excellence (CoE). This initiative is known as the “Grants Management
Line of Business” (GMLoB).

In July 2010, the CDFI Fund requested a waiver from compliance with GMLoB requirements. The Office of
Management and Budget (OMB) approved the request, noting that the CDFI Fund’s fit-gap analysis
demonstrated that none of the approved consortia aligned well with the CDFI Fund’s business processes. OMB
also approved the CDFI Fund’s request to acquire a new commercial off-the-shelf product to replace its legacy
business systems. This product, the Award Management Information System (AMIS), will be an enterprise
business system to meet the CDFI Fund’s award and tax credit allocation management requirements.

The CDFI Fund is in the planning phase of acquiring AMIS. The CDFI Fund has analyzed its mission-oriented
business processes and developed a single, enterprise business model that streamlines and eliminates
redundancies, and removes stove-piped and program-specific procedures. By streamlining business processes
and leveraging modern automation and technology, the CDFI Fund expects to be able to handle larger volumes
of grants, tax credits, and loan portfolios while achieving more transparency and better data quality, and
providing better service to customers.

The CDFI Fund is in the process of developing an acquisition package for AMIS, expecting to award an AMIS
contract in FY 2012 and complete deployment of AMIS throughout the CDFI Fund in FY 2014.




                                                                                                                34
Federal Funding Accountability and Transparency Act
Effective October 2010, the Federal Funding Accountability and Transparency Act of 2006 (FFATA) and its
2008 amendments require that all federal grant-making agencies report on their grant activities on a publicly
viewable website, USASpending.gov. This creates a new obligation for awardees under the CDFI Fund’s grant
programs to maintain active accounts in the Central Contractor Registration System, to identify their locations,
the places where most of their activities are concentrated, provide information about any first-tier subawards and
about the compensation of the five most highly paid people within the organizations (subject to certain
thresholds). In order to comply with this requirement, the CDFI Fund includes the standard award terms as
stipulated by FFATA in its assistance agreements and monitors the data quality of the information provided to
the USASpending.gov through the Federal Assistance Award Database System Plus. In addition, the CDFI Fund
has developed complementary guidance and highlights FFATA reporting requirements during post-award web-
seminars for all of the grant programs at the CDFI Fund to include the CDFI Program, the NACA Program, the
FEC Program, the CMF, and other programs that Congress may authorize and appropriate for the CDFI Fund to
administer.

Improper Payments Elimination and Recovery Act of 2010 (IPERA)
On July 22, 2010, President Obama signed into law the Improper Payments Elimination and Recovery Act
(IPERA, Pub. L. 111-204). Office of Management and Budget (OMB) implementing guidance Memorandum M-
11-04, Increasing Efforts to Recapture Improper Payments by Intensifying and Expanding Payment Recapture
Audits, dated November 16, 2010, states that bureaus are responsible for increasing efforts to recapture improper
payments by intensifying and expanding Payment Recapture Audits under IPERA. The CDFI Fund is working
with the Bureau of Public Debt and Departmental Offices in order to prevent and recapture improper payments.

Management Responsibilities
CDFI Fund management is responsible for the fair presentation of information contained in the principal
financial statements in conformity with accounting principles generally accepted in the United States of America.
Management is also responsible for the fair presentation of the CDFI Fund’s performance measures in
accordance with the Office of Management and Budget requirements. The quality of the CDFI Fund’s internal
control structure rests with management, as does the responsibility for identification of and compliance with
applicable laws and regulations.

Limitations of the Financial Statements
The financial statements report the financial position and results of operations of the CDFI Fund for the fiscal
years ending on September 30, 2011 and 2010, pursuant to the requirements of 31 U.S.C. 3515(b). While the
statements have been prepared from the books and records of the CDFI Fund in conformity with accounting
principles generally accepted in the United States of America, the statements are in addition to the financial
reports used to monitor and control budgetary resources which are prepared from the same books and records.
The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity, and that the payment of all liabilities other than for contracts can be abrogated by the sovereign
entity.




                                                                                                                 35
Analysis of Financial Position and Results of Operations


                                   Summarized Financial Data
                                      (Amounts in Millions)
                                                                           Increase /
                                              FY 2011          FY 2010    (Decrease)
          Assets                               $258.4           $271.9        ($13.5)
          Liabilities                           $80.1            $74.8           $5.3
          Net Position                         $178.2           $197.1        ($18.9)
          Revenue and Financing
          Sources                              $248.3           $171.8         $76.5
          Expenses                             $249.5           $178.1         $71.4
          Shortage of Revenue and Financing
          (Net Loss)                            ($1.2)           ($6.3)         $5.1




                                                                                        36
D




                        Allocation of Fund Assets as of September 30, 2011
                                      Amounts in Millions

                                Investment in
                              Awardees, Net, $21.1
                                    Million                 Other, $1.3 Million




         Loans Receivable,
         Net, $45.2 Million




                                                                                               Fund Balance With
                                                                                                Treasury, $190.8
                                                                                                    Million




                          Fund Balance With Treasury   Loans Receivable, Net      Investment in Awardees, Net   Other




Assets
Assets decreased by $13.6 million during FY 2011, consisting primarily of a decrease in the Fund Balance with
Treasury which includes appropriated and borrowed funds available to pay liabilities and to finance authorized
award and purchase commitments.

Fund Balance with Treasury
The Fund Balance with Treasury reflected a ($12.9) million change from the prior year, due to differences in the
timing of when appropriation revenue is received versus when expenses are paid.

Loans Receivable
Loans receivable are increased when loan awards (under the CDFI and NACA programs) are disbursed by the
CDFI Fund and decreased for loan repayments and loan write-offs. During FY 2011, net loans increased by $1.0
million, resulting, in part, from loan repayments of $3.2 million and a decrease in the allowance for bad debts of
$4.2 million. The CDFI Fund received less loan modification requests from awardees resulting in a decrease in
the allowance for bad debts.

Investments
The CDFI Fund currently holds five types of investments with net balances as follows:

    • Non-voting equity securities - $14.6 million
    • Convertible subordinated debt - $0.4 million
    • Limited partnerships - $2.6 million
    • Secondary Capital - $3.4 million
    • Certificates of Deposit - $0.15 million




                                                                                                                        37
The primary source of financial data used for the majority of assessments is the most recent audited financial
statements of the investees. These assessments determine whether any other–than–temporary impairments
should be recognized.

Liabilities
The increase in liabilities during the year of $5.3 million consisted primarily of an increase in awards payable of
$10.9 million and a decrease in debt of $6.0 million.

Awards Payable
Awards payable consists of CDFI Program FA awards of $37.8 million and CMF awards of $5.0 million. Awards
payable increased by $10.9 million in FY 2011 as many CDFI Program awards were announced in September, 2011
and disbursed in FY 2012. The announcement of FY 2011 BEA awards was not made prior to September 30, 2011.

Debt
During FY 2011, the CDFI Fund borrowed $1.1 million due to a downward subsidy reestimate and $0.7 million to
meet annual interest payments due to the Treasury Department, at interest rates ranging partly from 1.85% to 6.48%,
depending on maturity dates or risk categories. The CDFI Fund borrowing was partly offset by the repayments of
amounts borrowed from Treasury totaling $7.8 million to fund loans to awardees. Principal repayments collected
from awardee loans during the year are used to repay the Treasury borrowings, and therefore amounts collected and
repaid to Treasury each year will vary from year to year, as they are a function of awardee loan terms.

Net Position
Net position decreased during the year by $18.9 million. Net position will change during the year as a result of
the following: 1) the difference between appropriations received (net of appropriations cancelled, rescinded and
adjusted for credit subsidy reestimates) and appropriations used; 2) any adjustment of the CDFI Fund’s subsidy
reestimate, and 3) the excess (shortage) of revenue and financing sources over (under) expenses. During FY
2011, appropriations received and appropriations for subsidy reestimate (net of amounts cancelled, rescinded and
downward subsidy reestimate) were $228.3 million, and appropriated capital used was $245.9 million resulting
in a decrease in net position of $17.6 million. Net position decreased further due to the $1.2 million loss
recorded by the CDFI Fund in FY 2011.

Revenue and Financing Sources
The primary source of revenue and financing sources for the CDFI Fund is the annual appropriation used to fund
expenses (“appropriated capital used” as reflected in the statement of operations). Pursuant to Federal grant
accounting requirements, the amount of appropriated funds recognized as revenue is, with certain adjustments,
equal to the amount of operating expenses for the year. Operating expenses for the year excluding those paid by
others were $246.0 million.




                                                                                                                 38
Expenses
The change in the CDFI Fund’s operating expenses, excluding administrative expenses paid by others during FY
2011 and FY 2010, consisted of the following:

                                      Comparison of Operating Expenses
                             Excluding Administrative Expenses Paid by Others
                                          Fiscal Years 2011 and 2010
                                           (Amounts in Millions)
                                                   FY 2011     FY 2010  Difference
                          Award Expenses            $232.0      $147.2    $84.8
                          Administrative
                         Expenses                    $18.2       $19.4    ($1.2)
                          Bad Debt Expense          ($4.2)        $2.4    ($6.6)
                          Total Operating
                         Expenses                   $246.0      $169.0    $77.0




Award Expenses
Award expenses during the year increased $84.8 million primarily due to $80.0 million in CMF awards. CDFI
Program awards increased $29.0 million and BEA Program awards decreased $24.2 million. The CDFI Program
awards increased due to increase in appropriated funding which included $25 million for the Healthy Food
Financing Initiative under the Financial Assistance component of the program. The FY 2011 BEA awards were
not announced prior to September 30, 2011.




                                                                                                         39
Administrative Expenses
Administrative expenses decreased by $1.3 million during FY 2011 primarily due to a $0.5 million decrease in
communications shared services expense under the Working Capital Fund and a $0.6 million decrease in
contractual services resulting from a change in vendors.

Bad Debt Expense
Bad debt expense is a function of the amount of loans receivable at year-end and the loan modifications made
during the year. The CDFI Fund performs an analysis process that includes a loan-by-loan review using key
financial ratios from the awardees’ most recent audited financial statements. This analysis results in both
specific and general estimates of allowance necessary for FY 2010 and FY 2011. Bad debt expense decreased
during FY 2011 by $4.2 million as fewer CDFI Fund borrowers requested modifications to their loan agreements
in order to meet their financial obligations.

Net Loss
As stated above, the amount of appropriated capital used (the largest component of the CDFI Fund’s revenue) is,
with certain adjustments, equal to the amount of operating expenses for the year. Accordingly, the shortage of
revenue and other financing sources over expenses (net loss) will consist of the amount by which expenses not
covered by budgetary resources exceeds revenue and financial sources other than appropriated capital used.

For FY 2011, expenses not covered by budgetary resources totaled $1.9 million, consisting of interest expense on
Treasury borrowings. Interest and dividend income totaled $1.5 million.

In FY 2011, the CDFI Fund recorded an investment impairment loss of $0.8 million.




                                                                                                            40
Independent Auditors’ Report




                               41
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                                         Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury

Director
Community Development Financial Institutions Fund

We have audited the accompanying statements of financial position of the U.S. Department of the
Treasury’s Community Development Financial Institutions Fund (CDFI Fund) as of September 30, 2011
and 2010, and the related statements of operations and changes in net position, and cash flows (hereinafter
referred to as “financial statements”) for the years then ended. These financial statements are the
responsibility of the CDFI Fund’s management. Our responsibility is to express an opinion on these
financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the CDFI Fund’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Community Development Financial Institutions Fund as of September 30, 2011
and 2010, and the results of its operations and cash flows for the years then ended in conformity with U.S.
generally accepted accounting principles.

The information in the Community Development Financial Institutions Fund Overview, Program
Discussion and Analysis, and Status of Financial Management sections is not a required part of the
financial statements. We have applied certain limited procedures, which consisted principally of inquiries
of management regarding the methods of measurement and presentation of this information. However, we
did not audit this information and, accordingly, we express no opinion on it.

The information in the appendices is presented for purposes of additional analysis and are not required as
part of the financial statements. This information has not been subject to auditing procedures and,
accordingly, we express no opinion on it.


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Community Development Financial Institutions Fund
November 10, 2011
Page 2 of 2




In accordance with Government Auditing Standards, we have also issued our reports dated November 10,
2011, on our consideration of the CDFI Fund’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 10, 2011
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
U.S. Department of the Treasury

Director
Community Development Financial Institutions Fund

We have audited the statements of financial position of the U.S. Department of the Treasury’s Community
Development Financial Institutions Fund (CDFI Fund) as of September 30, 2011 and 2010 and the related
statements of operations and changes in net position, and cash flows (hereinafter referred to as “financial
statements”) for the years then ended, and have issued our report thereon dated November 10, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the CDFI Fund is responsible for establishing and maintaining effective internal
control. In planning and performing our fiscal year 2011 audit, we considered the CDFI Fund’s internal
control over financial reporting by obtaining an understanding of the design effectiveness of the CDFI
Fund’s internal control, determining whether internal controls had been placed in operation, assessing
control risk, and performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the CDFI Fund’s internal control over financial reporting. Accordingly, we
do not express an opinion on the effectiveness of the CDFI Fund’s internal control over financial reporting.
We did not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in internal control over financial
reporting that might be significant deficiencies or material weaknesses and therefore, there can be no
assurance that all deficiencies, significant deficiencies, or material weaknesses have been identified.
However, in our fiscal year 2011 audit, we identified certain deficiencies in internal control over financial
reporting that we consider to be material weaknesses.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Community Development Financial Institutions Fund
November 10, 2011
Page 2 of 6




A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. We
consider the deficiencies described in Exhibit I to be material weaknesses.

The CDFI Fund’s responses to the findings identified in our audit are presented in Exhibit II. We did not
audit the CDFI Fund’s responses and, accordingly, we express no opinion on them.

Exhibit III presents the status of the prior year’s significant deficiency.

This report is intended solely for the information and use of the addressees, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 10, 2011
                                                                                               Exhibit I

                        Community Development Financial Institutions Fund

                              Material Weaknesses and Recommendations




I – A Grant Accruals

During our fiscal year 2011 testing of completeness of the Community Development Financial
Institutions Fund’s (CDFI Fund) accruals at September 30, 2011, we noted four exceptions
totaling $4,120,900 out of a sample of six disbursement totaling $7,120,900. These exceptions
related to CDFI grants (excluding BEA grants) for which the cash disbursement occurred in
October 2011, but the grants were approved (i.e. the agreement was fully executed) on or before
September 30, 2011. Accordingly, such amounts were neither accrued as awards payable nor
recognized as expenses as of September 30, 2011. Further necessary testing by management on
the remaining population identified an additional $27,811,761 that was also not properly accrued
as of September 30, 2011 for a total of $31,932,661.
The Office of Management and Budget Circular A-123 Management’s Responsibility for Internal
Control states that “Management is responsible for establishing and maintaining internal control
to achieve the objectives of effective and efficient operations, reliable financial reporting, and
compliance with applicable laws and regulations.”

The CDFI Fund Financial Statements describe the accounting policies that are in accordance with U.S.
Generally Accepted Accounting Principles. Specifically related to grants, and consistent with overall
accrual principles, the accounting policy for Awards Payable states, “CDFI Program grant expense is
recognized and awards payable are recorded when the fund is made aware, in writing, that the awardee has
met the conditions required for payment and the CDFI Fund approves a grant disbursement to be made.”

The CDFI Fund does not have a policy in place to identify CDFI grants (excluding BEA grants) that have
been approved for disbursement but have not been disbursed at period end. There were not
appropriate procedures and controls in place for the programmatic staff and the financial staff to
communicate and determine the existence of approved but undisbursed awards that would require period-
end accrual.

Awards payable on the Statements of Financial Position and appropriations revenue and CDFI
grants expense on the Statements of Operations and Changes in Net Position have been corrected
to reflect a prior understatement of $31,932,661. Unexpended appropriations on the Statements of
Financial Position have been corrected to reflect a prior overstatement of $31,932,661.

Recommendation:
We recommend that management of the CDFI Fund implement policies, procedures and controls
to identify grant agreements that are effective at year end but have not yet been disbursed and
would thus require expense recognition and accrual as awards payable as well as recognition of
related appropriations revenue.
                                                                                                    Exhibit I

                         Community Development Financial Institutions Fund

                                Material Weaknesses and Recommendations


I – B Grant Disbursements

During our fiscal year 2011 testing of the Community Development Financial Institutions Fund’s (CDFI
Fund) grant disbursements, we noted the following:
   • Seven of 54 grants selected during our final testwork sample were disbursed prior to the effective
       date of the grant assistance agreement.
   • One of 54 grants selected during our final testwork sample was disbursed without an effective date
       on the grant assistance agreement, and it was thus inconclusive whether funds were disbursed prior
       to the execution of the agreement.

The Office of Management and Budget Circular A-123 Management’s Responsibility for Internal Control
states that “Management is responsible for establishing and maintaining internal control to achieve the
objectives of effective and efficient operations, reliable financial reporting, and compliance with applicable
laws and regulations.” It also states that “Management shall consistently apply the internal control
standards to meet each of the internal control objectives and to assess internal control effectiveness.”

The CDFI Fund website at http://www.cdfifund.gov/what_we_do/awardees.asp states, “The Assistance
Agreement contains standard terms and conditions for all awardees/allocatees as well as terms and
conditions that are specific to each awardee/allocatee. The Assistance Agreement or Allocation Agreement
must be agreed to and signed by both the CDFI Fund and the awardee/allocatee before the CDFI Fund can
disburse any award dollars to an awardee or an allocatee can utilize its allocation of tax credits.” We have
been informed by management that this constitutes the CDFI Fund’s operational policy.

The CDFI Fund did not consistently follow its policies and procedures related to grant disbursements.

For certain sampled grants, funds were disbursed prior to the execution of a grant agreement. While no
resultant misstatement was detected at year-end, this deficiency could cause the financial statements to be
misstated, specifically, appropriations revenue and grants expense could be reflected in the wrong fiscal
year.

Recommendation:

We recommend that management of the CDFI Fund further refine its policies, procedures and controls to
require that funds not be disbursed prior to the effective date of the grant agreement and that all grant
agreements be dated.
                                                                                                  Exhibit II

                         Community Development Financial Institutions Fund

                 Management’s Responses to Material Weaknesses and Recommendations




Grant Accruals

The CDFI Fund concurs with the finding and the recommendation.

The CDFI Fund has procedures and controls in place for programmatic and financial staff to communicate
and determine the existence of approved but undisbursed Bank Enterprise Awards that require year-end
accrual. As CDFI Program grant approvals and disbursements usually do not span year-end, similar
procedures and controls were not in place for these grants. Fiscal year 2011 was an anomaly in that the
CDFI Program grants were approved significantly later than normal due to budget delays which resulted in
approvals and disbursements to cross fiscal years. The CDFI Fund will work with our partners in the
Office of Financial Management and the Bureau of Public Debt to: (1) clarify roles and responsibilities for
all parties involved in the accrual process and (2) implement policies, procedures and controls to ensure all
awards payable are properly accrued at year-end.



Grant Disbursements

The CDFI Fund concurs with the finding and the recommendation.

The CDFI Fund acknowledges that incorrect Effective Dates were inserted on a subset of FY 2011 CDFI
Program grant agreements, which may lead to an impression that some award funds may have been
disbursed without prior, required approvals and authorizations. We do not believe such to be the case,
however, since an award package is not forwarded through the disbursement system without proper
signatures and approvals, regardless of whether the Effective Date is correct or incorrect. As noted in the
recommendation, the auditors did not note any misstatement of the CDFI Fund's financial statements as a
result of this issue. Going forward, the CDFI Fund will take measures to ensure that the correct Effective
Date is entered on the date that the CDFI Fund signs a grant agreement.
                                                                                           Exhibit III

                     Community Development Financial Institutions Fund

                                    Status of Prior Year’s Finding




         Fiscal Year 2010 Finding                  Deficiency Type        Fiscal Year 2011 Status

1) Improvements are needed in accounting         Significant Deficiency           Closed
   for investments
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of the Treasury

Director
Community Development Financial Institutions Fund

We have audited the statements of financial position of the U.S. Department of the Treasury’s Community
Development Financial Institutions Fund (CDFI Fund) as of September 30, 2011 and 2010, and the related
statements of operations and changes in net position, and cash flows (hereinafter referred to as “financial
statements”) for the years then ended, and have issued our report thereon dated November 10, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the CDFI Fund is responsible for complying with laws, regulations, contracts, and
grant agreements applicable to the CDFI Fund. As part of obtaining reasonable assurance about whether
the CDFI Fund’s financial statements are free of material misstatement, we performed tests of the CDFI
Fund’s compliance with certain provisions of laws, regulations, contracts, and grant agreements,
noncompliance with which could have a direct and material effect on the determination of the financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-
04. We limited our tests of compliance to the provisions described in the preceding sentence, and we did
not test compliance with all laws, regulations, contracts, and grant agreements applicable to the CDFI
Fund. However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance discussed in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 10, 2011



                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Financial Statements and Notes




                                 51
                     Community Development Financial Institutions Fund
                             Statements of Financial Position
                           As of September 30, 2011 and 2010


                                                                          2011         2010
                                Assets


   Fund Balance with Treasury (Note 4)                               $   190,790,334   203,706,636
   Advances and prepayments                                                  268,995       245,855
   Loans receivable, net of allowance for bad
      debts of $7,052,981 in 2011 and $11,278,017 in 2010 (Note 5)        45,247,578    44,271,564
   Investments, amortized cost (Note 6)                                    3,922,396     3,849,089
   Investments, cost method (Note 8)                                      14,610,771    15,388,420
   Investments, equity method (Note 9)                                     2,615,220     3,018,116
   Interest and other receivable                                             296,172       443,960
   Internal-use software, net of accumulated amortization of
      $4,291,958 in 2011 and $3,940,101 in 2010                              601,597      600,251
   Internal-use software in development                                            -      414,272
                Total assets                                         $   258,353,063   271,938,163



                  Liabilities and Net Position

   Accounts payable                                                  $       636,399       230,013
   Awards payable                                                         42,752,841    31,893,723
   Accrued payroll                                                           479,408       443,985
   Accrued annual leave                                                      510,498       512,024
   Debt (Note 10)                                                         35,731,306    41,739,350
                Total liabilities                                         80,110,452    74,819,095

   Commitments (Note 11)

   Unexpended appropriations (Note 12)                                   160,937,168   178,568,702
   Cumulative results of operations                                       17,305,443    18,550,366
                Total net position                                       178,242,611   197,119,068

                Total liabilities and net position                   $   258,353,063   271,938,163




The accompanying notes are an integral part of these statements




                                                                                                     52
                        Community Development Financial Institutions Fund
                       Statements of Operations and Changes in Net Position
                             Years Ended September 30, 2011 and 2010



                                                                       2011           2010

Revenue and financing sources:
  Appropriations                                                  $   245,929,283    169,030,773
  Imputed other income - expenses paid by others (Note 13)                895,512        939,110
  Interest, non-federal                                                 1,062,081      1,227,300
  Interest, federal                                                       134,717        178,197
  Dividends                                                               130,780        147,551
  Other                                                                    78,587              -
  Equity in income of associates, net                                      74,109        315,050
     Total revenue and financing sources                              248,305,069    171,837,981


Expenses:
  CDFI and CMF grants (Note 14)                                       231,927,165    122,881,601
  BEA grants                                                               125,100    24,345,852
  Administrative expenses (Note 15)                                    18,183,728     19,446,152
  Increase in (reversal of) bad debt expense                           (4,225,036)     2,391,106
  Administrative expenses paid by others (Note 13)                         895,512       939,110
    Total operating expenses                                          246,906,469    170,003,821


  Interest expense, federal                                             1,865,874      2,135,638
  Impairment losses                                                       777,649      6,015,618
     Total expenses                                                   249,549,992    178,155,077

  Net loss                                                        $    (1,244,923)   (6,317,096)

Cumulative results of operations, beginning of year               $    18,550,366    24,867,462
Net loss                                                               (1,244,923)   (6,317,096)

    Cumulative results of operations, end of year                 $    17,305,443     18,550,366



The accompanying notes are an integral part of these statements




                                                                                             53
                      Community Development Financial Institutions Fund
                                 Statements of Cash Flows
                         Years Ended September 30, 2011 and 2010


                                                                                2011           2010
Cash flows from operating activities:
  Net loss                                                                $    (1,244,923)    (6,317,096)
  Adjustments to reconcile net loss to net cash provided by operations:
    Impairment losses                                                              777,649     6,015,618
    Equity in gain of associates                                                  (74,109)     (315,050)
    Amortization expense                                                           351,857       447,807
    Accretion of discount                                                         (73,307)       (73,307)
    Increase in (reversal of) bad debt expense                                 (4,225,036)     2,391,106
  Change in assets and liabilities:
    Decrease (increase) in advances and prepayments                               (23,140)       684,355
    Decrease (increase) in interest and other receivable                          147,788        (64,620)
    Increase (decrease) in accounts payable and accrued payroll                   441,809        (42,081)
    Increase in awards payable                                                 10,859,118     23,984,509
    Increase (decrease) in accrued annual leave                                    (1,526)         38,602

                 Net cash provided by operating activities                      6,936,180     26,749,843

Cash flows from investing activities:
    Proceeds from disposition of investments                                      477,005      1,238,696
    Acquisition of internal-use software                                                -        (61,755)
    Disposition of internal-use software                                           61,069               -
    Collection of loan principal                                                3,249,022      4,713,165

                 Net cash provided by investing activities                      3,787,096      5,890,106

Cash flows from financing activities:
    Increase (decrease) in unexpended appropriations, net                     (17,631,534)    87,022,094
    Borrowings from Treasury                                                     1,805,699      6,309,129
    Loan payments to Treasury                                                  (7,813,743)    (5,207,790)

                 Net cash (used in) provided by financing activities          (23,639,578)    88,123,433

                 Net change in Fund Balance with Treasury                     (12,916,302)   120,763,382

Fund Balance with Treasury, beginning of year                                 203,706,636     82,943,254

Fund Balance with Treasury, end of year                                   $   190,790,334    203,706,636




The accompanying notes are an integral part of these statements




                                                                                                        54
Notes to the Financial
Statements




                         55
(1)   Description of Reporting Entity
      The Community Development Financial Institutions Fund (CDFI Fund) was created as a bipartisan
      initiative in the Riegle Community Development and Regulatory Improvement Act of 1994 (Public Law
      No. 103-325). The CDFI Fund was placed in the Department of the Treasury and began operations in
      July 1995.

      The CDFI Fund operates various programs aimed at expanding the availability of credit, investment
      capital, and financial and other services in distressed urban, rural, and Native American communities. The
      CDFI Fund is intended to help create a national network of financial institutions dedicated to community
      development that leverages private resources (financial and human) to address community development
      needs.

      The major programs operated by the CDFI Fund are the Community Development Financial Institutions
      Program (consisting of a Financial Assistance and Technical Assistance Component), the New Markets
      Tax Credit Program, the Bank Enterprise Awards Program, Native Initiatives and the Capital Magnet
      Fund.

      The Community Development Financial Institutions (CDFI) Program provides financial and technical
      assistance awards to certified community development financial institutions (CDFIs) which in turn provide
      services to create community development impact in underserved markets. Financial assistance awards
      take the form of grants, direct loans, and equity investments. Technical Assistance grants provide
      assistance to start-up and early-stage CDFIs and entities planning to become CDFIs.

      The CDFI Fund implemented the New Markets Tax Credit (NMTC) Program during fiscal year 2002.
      Under this program, the CDFI Fund provides an allocation of tax credits to Community Development
      Entities (CDEs), which use these credits to attract private sector investment. Proceeds from these
      investments are used for community development purposes. Unlike the CDFI Fund’s grant programs, the
      allocation of tax credits to CDEs has no effect on the financial statements of the CDFI Fund.

      The Bank Enterprise Award (BEA) Program provides incentives to insured depository institutions (banks
      and thrifts) to invest in CDFIs and to increase their lending and financial services in distressed
      communities. Program participants are selected based on projected achievements. The awards are
      disbursed only after the activities have been implemented successfully, to ensure that only completed
      activities are recognized and that the CDFI Fund’s limited dollars are effectively leveraged with private
      capital.

      Through the Native American CDFI Assistance (NACA) Program, a component of the Native Initiatives,
      the CDFI Fund provides grants to help create CDFIs and to build the capacity of existing Native CDFIs
      that serve primarily Native American, Alaska Native, and Native Hawaiian communities.

      Through the Capital Magnet Fund (CMF), the CDFI Fund provides competitively awarded grants to CDFIs
      and qualified nonprofit housing organizations. CMF awards can be used to finance affordable housing
      activities as well as related economic development activities and community service facilities. Awardees
      will be able to utilize financing tools such as loan loss reserves, loan funds, risk-sharing loans, and loan
      guarantees to produce eligible activities whose aggregate costs are at least ten times the size of the award
      amount.




                                                                                                              56
(2)   Community Development Institutions Bond Guarantee Program

      The CDFI Bond Guarantee Program was enacted through the Small Business Jobs Act of 2010 (Public
      Law 111-240) on September 27, 2010. The CDFI Fund will serve as the program administrator and the
      U.S. Department of the Treasury (Treasury Department) will guarantee the full amount of notes or bonds
      issued to support CDFIs that make investments for eligible community or economic development
      purposes. The bonds or notes are intended to support CDFI lending and investment by providing a source
      of long-term, patient capital to CDFIs. The law provides $13.5 million be made available to the CDFI
      Fund to establish and administer the program. The CDFI Fund is required by statute to promulgate
      program regulations by September 27, 2011 and to implement the program by September 27, 2012. The
      program expires in 2014.

(3)   Summary of Significant Accounting Policies

      (a)   Basis of Presentation
            The American Institute of Certified Public Accountants (AICPA) has designated the Federal
            Accounting Standards Advisory Board (FASAB) as the standards-setting body for financial
            statements of federal governmental entities, with respect to the establishment of accounting
            principles generally accepted in the United States of America. SFFAS 34, issued by FASAB,
            provides authoritative guidance allowing federal entities to prepare financial statements in
            conformance with accounting and reporting principles issued by the Financial Accounting Standards
            Board (FASB). Accordingly, the CDFI Fund financial statements are presented in accordance with
            accounting standards published by FASB.

      (b)   Use of Estimates

            The preparation of financial statements in conformity with accounting principles generally accepted
            in the United States of America requires management to make estimates and assumptions that affect
            the reported amounts of assets and liabilities and disclosure of contingent assets and liabilities at the
            date of the financial statements and the reported amounts of revenues and expenses during the
            reporting period. Actual results could differ from these estimates. Significant items subject to such
            estimates include allowance for bad debts and the identification and valuation of investment
            impairments.

      (c)   Fund Balance with Treasury
            The CDFI Fund does not maintain cash in commercial bank accounts. The Treasury Department
            processes cash receipts and disbursements. Fund Balance with Treasury is composed primarily of
            appropriated and borrowed funds (financing and program accounts) that are available to pay
            liabilities and finance authorized award and purchase commitments.

      (d)   Loans Receivable, net of Allowance for Bad Debts
            Loans receivable relate to direct loans made to certain CDFI Program awardees and are recorded at
            face value. Direct and incremental loan costs are deemed to be de minimis. Any interest is
            recognized over the life of the loan, when earned. Amounts collected on loans receivable are
            included in cash flows from investing activities in the statements of cash flows. During fiscal years
            2010 and 2011, the CDFI Fund received requests from awardees requesting an extension of their
            maturity dates. The requests were processed in collaboration with the Office of Management and
            Budget and the Department of the Treasury Office of Financial Management (OFM). A
            restructuring of a loan constitutes a troubled debt restructuring for purposes of FASB ASC-310-40 if
                                                                                                                  57
      the creditor grants a concession to the debtor that it would not otherwise consider. While the loan
      extensions are being processed, awardees do not make principal payments. The CDFI Fund
      continues to accrue and collect interest on all loans that are under restructuring.
      The allowance for bad debts is the CDFI Fund’s best estimate of the amount of credit losses in the
      CDFI Fund’s existing loans. The allowance includes both specific and non-specific loan analysis.
      The non-specific portion of the allowance considers historical loss experience adjusted for current
      factors. The historical loss experience is based on actual loss history experienced by the CDFI Fund
      over the most recent six years. This actual loss experience is supplemented with other economic
      factors that include consideration of the following: levels of and trends in delinquencies and
      impaired loans; levels of and trends in write-offs; the number of loan restructurings processed in the
      current year; and the recent performance of previously restructured loans. The specific portion is
      determined on an individual basis upon review of any loan that has a past due balance or no payment
      required until maturity, was modified during the year, or was included in the specific allowance in
      the prior year. A loan is considered impaired pursuant to FASB ASC-310-10-35. Specifically, a
      loan is impaired if it is probable that the CDFI Fund will not collect all principal and interest
      contractually due. The impairment is measured based on the present value of the expected future
      cash flows discounted at the loan’s effective interest rate. Impairment losses are charged against the
      allowance and increases in the allowance are charged to bad debt expense. Loans are written off
      against the allowance when all possible means of collection have been exhausted and the potential
      for recovery is considered remote.

(e)   Interest and Other Receivable
      Interest is accrued on the outstanding loans receivable principal balances and investments based on
      stated rates of interest.

(f)   Investments
      The CDFI Fund provides assistance to certain for-profit CDFI program awardees by purchasing
      various investments described below. The CDFI Fund is restricted from owning more than 50% of
      the equity of awardees and from controlling their operations. Held-to-maturity debt securities are
      those debt securities in which the CDFI Fund has the ability and intent to hold the security until
      maturity.

          • Non-voting Equity Securities: These investments do not meet the criteria for Variable Interest
             Entity accounting. These investments are carried at original cost subject to other-than-
             temporary impairments.

          • Secondary Capital Interests: These interests are held-to-maturity and carried at amortized
              cost, net of applicable discounts, subject to other-than-temporary impairments.

          • Convertible Subordinated Debt: This instrument exhibits sufficient characteristics of an equity
              security as the CDFI Fund is entitled to any dividends in the non-voting common stock as if
              the CDFI Fund had converted the debentures into such stock prior to the declaration of the
              dividend. This investment does not meet the criteria for embedded derivative accounting.
              This investment is held-to-maturity and carried at amortized cost, net of applicable
              discounts, subject to other-than-temporary impairments.

          • Limited Partnership Interests: These investments do not meet the criteria for Variable Interest
              Entity accounting. These interests are carried in accordance with the equity method of
              accounting by recognizing the pro-rata share of investee profit/loss through the statement of


                                                                                                         58
               operations. Investments are further subject to assessment of any other-than-temporary
               impairments as discussed below.

          • Certificates of Deposits: These investments are held-to-maturity and recognized at cost as they
              are fully insured.

      Held-to-maturity debt securities are recorded at amortized cost, adjusted for the amortization of
      premiums or discounts. Premiums and discounts are amortized over the life of any related held-to-
      maturity security as an adjustment to yield using the straight-line method.

      For non-voting equity securities and limited partnerships, a decline in the fair value of any security
      below cost that is deemed to be other-than-temporary results in an impairment to reduce the carrying
      amount to fair value. The impairment is charged to earnings and a new cost basis for the security is
      established. To determine if an impairment is other-than-temporary, the CDFI Fund considers
      whether (1) it has the ability and intent to hold the investment until a market price recovery and (2)
      evidence indicating the cost of the investment is recoverable outweighs evidence to the contrary.
      Evidence considered in this assessment includes the reasons for the impairment, the severity and
      duration of the impairment, changes in value subsequent to year-end, forecasted performance of the
      investee, and the general market condition in the industry in which the investee operates.

(g)   Internal-Use Software
      Internal-use software represents the completed phases of various software placed in service
      pertaining to 1) processing applications – this software automates the award application submission
      process; 2) geocoding – web-based software that geocodes addresses, census tracts and counties, and
      enables applicants to determine the funding eligibility of census tracts and counties under CDFI’s
      various programs; and 3) the Community Investment Impact System (CIIS) - a web-based data
      collection system for CDFI’s and Community Development Entities.
      The software is amortized using the straight-line method over the estimated useful life of seven
      years. Amortization expense for the years ended September 30, 2011 and 2010 was $351,857 and
      $447,807, respectively.

(h)   Internal-Use Software in Development
      Internal-use software encompasses software design, development, and testing of projects adding
      significant new functionality and long-term benefits. Costs for developing internal-use software are
      accumulated in internal-use software in development until a project is placed into service, and testing
      and final acceptance are successfully completed. Once completed the costs are transferred to
      internal-use software.

(i)   Leases
      At the beginning of each fiscal year the CDFI Fund obtains the estimated annual amount for all
      operating leases. The CDFI Fund then establishes an obligation to be recorded within the financial
      system for the full amount of the estimate. The CDFI Fund approves each monthly Intra-
      governmental Payment and Collection transaction and submits the approved form to the Bureau of
      Public Debt (BPD) for processing on a monthly basis. Rent payments are recognized on a straight-
      line basis over the term of the lease.




                                                                                                         59
(j)   Awards Payable
      CDFI Program and CMF grant expense is recognized and awards payable are recorded when the
      fund is made aware, in writing, that the awardee has met the conditions required for payment and the
      CDFI Fund approves a grant disbursement to be made. BEA Program grant expense is recognized
      and awards payable are recorded when the CDFI Fund approves the BEA award to be made (i.e. at
      the time the funds are obligated).

(k)   Retirement Plans
      CDFI Fund employees participate in the Civil Service Retirement System (CSRS) or the Federal
      Employees’ Retirement System (FERS). The FERS was established by the enactment of Public Law
      99-335. Pursuant to this law, FERS and Social Security automatically cover most employees hired
      after December 31, 1983.

      Employees hired prior to January 1, 1984, were provided an opportunity to join either FERS and
      Social Security or remain in CSRS. The amount of cost recognized by the CDFI Fund for these
      contributions for the years ended September 30, 2011 and 2010 was $681,519 and $658,144,
      respectively.

      For all employees, a Thrift Savings Plan (TSP) account is automatically established, and the
      employee can have up to a predetermined maximum amount withheld from their base salary, which
      is deposited into their TSP account. For FERS employees only, the CDFI Fund makes matching
      contributions ranging from 1% to 4% for employees who contribute to their TSP account (there is no
      matching contribution for CSRS employees). The amount of cost recognized by the CDFI Fund for
      these contributions for the years ended September 30, 2011 and 2010 was $244,419 and $243,225,
      respectively.

      In addition, CDFI Fund employees participating in CSRS have 7% of their base salary withheld
      which is contributed into a Retirement Fund. The CDFI Fund contributes the same amount into the
      Retirement Fund. The amount of cost recognized by the CDFI Fund for these contributions for the
      years ended September 30, 2011 and 2010 was $46,181 and $50,767, respectively.

      FERS employees and CSRS reinstatement employees are eligible to participate in the Social Security
      program for retirement. In these instances, the CDFI Fund remits the employer’s share of the
      required contribution.

(l)   Annual, Sick, and Other Leave
      Annual leave and compensatory leave is accrued as a liability when earned by the employee, and the
      accrual is reduced as leave is taken. The balance in this accrued liability account is computed using
      current pay rates. Sick leave and other types of non-vested leave are expensed as the leave is taken.

(m)   Debt
      Debt represents borrowings payable to the Treasury Department that were made to fund direct loans
      made by the CDFI Program. Principal repayments to the Treasury Department are required to be
      made based on the collections of loans receivable and are due September 30 of each year of maturity.

(n)   Contingencies
      Liabilities for loss contingencies arising from claims, assessments, litigation, fines, penalties and
      other sources are recorded when it is probable that a liability has been incurred and the amount of the
      obligation can be reasonably estimated. Legal costs incurred in connection with loss contingencies
      are expensed as incurred. The CDFI Fund currently has no contingent liabilities.
                                                                                                         60
(o)   Revenue and Other Income
      The CDFI Fund receives the majority of its funding through appropriations from the U.S. Congress.
      The CDFI Fund receives two-year appropriations that may be used, within statutory limits, for
      awards and operating expenses. Appropriations are recognized as revenues at the time the CDFI
      Fund’s grants are recorded as expenses, and when administrative expenses and provision for bad
      debts covered by budgetary resources are incurred.

      Occasionally, the CDFI Fund receives dividends on its equity investments and may use those funds
      for awards and operating expenses. Dividends are recognized when received.

      Additional revenue is obtained from interest received on direct loans and on uninvested funds held
      by the Treasury Department. Interest is recognized when earned.

(p)   Tax Status
      The CDFI Fund, as a government entity, is not subject to federal, state, or local income taxes and,
      accordingly, no provision for income tax is recorded.

(q)   Fair Value Measurements
      The CDFI Fund applies the provisions of ASC Topic 820, Fair Value Measurements, for fair value
      measurements of financial assets and financial liabilities and for fair values measurements of
      nonfinancial items that are recognized or disclosed at fair value in the financial statements on a
      nonrecurring basis. This standard defines fair value, establishes a consistent framework for
      measuring fair value and expands disclosure requirements for fair value measurements. This
      standard establishes a fair value hierarchy that prioritizes the inputs to valuation techniques used to
      measure fair value. The hierarchy gives the highest priority to unadjusted quoted prices in active
      markets for identical assets or liabilities (Level 1 measurements) and the lowest priority to
      measurements involving significant unobservable inputs (Level 3 measurements). The three levels
      of the fair value hierarchy are as follows:

      • Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or liabilities that
      the CDFI Fund has the ability to access at the measurement date.

      • Level 2 inputs are inputs other than quoted prices included within Level 1 that are observable for
      the asset or liability, either directly or indirectly.

      • Level 3 inputs are unobservable inputs for the asset or liability.

      See Note 7 for more information and disclosures relating to the CDFI Fund’s fair value
      measurements.

(r)   Newly Issued Not Yet Effective Accounting Standards

      In January 2010 FASB issued Accounting Standards Update 2010-06, Improving Disclosures about
      Fair Value Measurements, providing amendments to ASC Topic 820, Fair Value Measurements and
      Disclosures. These amendments require new disclosures pertaining to activity in Level 3 fair value
      measurements. The new disclosures are effective for annual reporting periods beginning after
      December 15, 2010. The CDFI Fund does not expect that these amendments will have a material
      impact on its statements of financial position or statements of operations.


                                                                                                             61
In July 2010 FASB issued Accounting Standards Update 2010-20, Disclosures about the Credit
Quality of Financing Receivables and the Allowance for Credit Losses, providing amendments to
ASC Topic 310, Receivables. The objective of these amendments is for an entity to provide
disclosures that facilitate financial statement user’s evaluation of the following: 1) the nature of
credit risk inherent in the entity’s portfolio of financing receivables, 2) how that risk is analyzed and
assessed in arriving at the allowance for credit losses, and 3) the changes and reasons for those
changes in the allowance for credit losses. The existing disclosures are amended to require
disclosures about an entity’s financing receivables on a disaggregated basis. The amendments also
require additional disclosures about financing receivables. For nonpublic entities the disclosures are
effective for annual reporting periods ending on or after December 15, 2011. The CDFI Fund does
not expect that these amendments will have a material impact on its statements of financial position
or statements of operations.

In April 2011 FASB issued Accounting Standards Update 2011-02, A Creditor’s Determination of
Whether a Restructuring is a Troubled Debt Restructuring, providing amendments to ASC Topic
310, Receivables. The objective of these amendments is to clarify the guidance on a creditor’s
evaluation of whether it has granted a concession and whether a debtor is experiencing financial
difficulties for purposes of determining whether a restructuring constitutes a troubled debt
restructuring. For nonpublic entities the disclosures are effective for annual reporting periods ending
on or after December 15, 2012. The CDFI Fund does not expect that these amendments will have a
material impact on its statements of financial position or statements of operations.




                                                                                                      62
(4)   Fund Balance with Treasury
      Fund Balance with Treasury as of September 30, 2011 and 2010 consisted of the following components:



                                                                        2011                2010

                   Available                               $            53,503,763       109,533,868
                   Obligated                                           135,472,769        92,393,461
                   Expired                                               1,813,802         1,779,307

                                                           $           190,790,334       203,706,636


      Fund Balance with Treasury includes appropriated and borrowed funds available to pay liabilities and to
      finance authorized award and purchase commitments.

(5)   Loans Receivable
      Loans receivable are primarily from the funds provided to awardees. Receivables consisted of the
      following as of September 30, 2011 and 2010:

                                                                         2011               2010
              Balance as of beginning of year                      $    55,549,581      $ 60,658,004
                 Add: Loans disbursed                                          -                  -
                 Less: Loan repayments                                  (3,249,022)        (4,713,165)
                 Less: Write off of loans                                      -             (395,258)
              Allowance for bad debts                                   (7,052,981)       (11,278,017)
              Loans receivable, net, as of end of year             $    45,247,578      $ 44,271,564

              The changes in the allowance for bad debts consisted of the
              following:

              Balance as of beginning of year                      $ (11,278,017)       $    (9,282,169)
              Decrease (increase) in allowance                         4,225,036            (2,391,106)
              Accounts credited against the allowance,
                 net of redemptions                                            -             395,258
              Balance as of end of year                            $    (7,052,981)     $ (11,278,017)



      Current loans receivable as of September 30, 2011 was $6,445,916 (net of allowance of $1,566,271).
      Long-term loans receivable as of September 30, 2011 was $38,801,662 (net of allowance of $5,486,710).

      Current loans receivable as of September 30, 2010 was $4,629,791 (net of allowance of $1,179,231).
      Long-term loans receivable as of September 30, 2010 was $39,641,773 (net of allowance of $10,098,786).


                                                                                                            63
      As of September 30, 2011 the CDFI Fund had a total recorded investment in impaired loans from troubled
      debt restructurings of $3,705,000 of which $3,375,000 had a related allowance for bad debt of $1,965,000.
      The amount of the recorded investment for which there is no related allowance for bad debt is $330,000.
      The CDFI Fund had a total recorded investment in other impaired loans of $1,236,870 and a $1,236,870
      related allowance for bad debt. As of September 30, 2010 the CDFI Fund had a total recorded investment
      in impaired loans from troubled debt restructurings of $9,913,025, of which $5,175,000 had a related
      allowance for bad debt of $1,967,500. The amount of the recorded investment for which there is no related
      allowance for bad debt is $4,738,025. The CDFI Fund had a total recorded investment in other impaired
      loans of $466,870 and a related allowance for bad debt of $186,748.

      During the years ended September 30, 2011 and 2010 the CDFI Fund had average recorded investments in
      impaired loans of $4,745,203 and $5,184,062, respectively. During these years the CDFI Fund recognized
      related interest income of $83,620 and $194,267, respectively. The CDFI Fund recognizes interest income
      on impaired loans as earned in accordance with loan agreements.

      For the years ended September 30, 2011 and 2010, grants in the amount of $3.0 million and $2.4 million,
      respectively, were disbursed to debtors owing receivables whose terms have been modified in troubled
      debt restructurings. As of September 30, 2011 and 2010 there were no commitments to lend additional
      funds or disburse grants to debtors owing receivables whose terms have been modified in troubled debt
      restructurings.

(6)   Investment Securities
      The carrying amount, net of applicable discounts, gross unrealized holding losses and fair value of held-to-
      maturity debt securities by major security type at September 30, 2011 and 2010 are as follows:


                                                                                 Gross            Amortized Cost
                                                         Aggregate Fair        Unrealized          (Net Carrying
                                                             Value               Loss                Amount)

       Investments, Held-to-Maturity at September 30, 2011:
          Certificates of deposit                     $       150,000          $          -        $    150,000
          Convertible debt securities                           368,206                       -           368,206
          Secondary capital securities                        3,404,190                       -         3,404,190
                      Total                           $     3,922,396          $          -         $   3,922,396


       Investments, Held-to-Maturity at September 30, 2010:
         Certificates of deposit                        $       150,000        $          -         $     150,000
         Convertible debt securities                               324,103                    -           324,103
         Secondary capital securities                            3,374,986                    -         3,374,986
                     Total                              $      3,849,089       $          -         $   3,849,089




                                                                                                               64
      Maturities of debt securities classified as held-to-maturity were as follows at September 30, 2011:

                                                                                          Net Carrying
                                                                    Fair Value              Amount
       Held-to-Maturity:
               Due within one year                           $        2,000,022      $       2,000,022
               Due after one through five years                         665,427                665,427
               Due after five through ten years                         888,741                888,741
               Due after ten years                                      368,206                368,206
                                                             $        3,922,396      $       3,922,396



      The CDFI Fund evaluates whether unrealized losses on investment securities indicate other-than-temporary
      impairment. Significant factors considered include investee audit opinions, regulatory findings and trends
      in various financial criteria. Based on this evaluation, the CDFI Fund recognized no other-than-temporary
      impairment losses of these investments in 2011 or 2010.

      Convertible debt securities consist of non-interest bearing convertible subordinated debentures. As of
      September 30, 2011 and 2010, this category consists of one debenture of $2 million notional amount
      (amortized cost of $368,206 and $324,103 as of September 30, 2011 and 2010, respectively) which
      matures January 2048 with the option to convert into 200,000 shares of non-voting class B common stock
      at a $10 per share conversion price.

      Secondary capital securities consist of investments that cannot be redeemed prior to scheduled redemption
      dates.

      Certificates of deposits are investments in federal credit union awardees, and have interest rates of
      zero percent.

(7)   Fair Value Measurements
      (a)   Fair Value of Financial Instruments

            The following table presents the carrying amounts and estimated fair values of the CDFI Fund’s
            financial instruments at September 30, 2011 and 2010. The fair value of an instrument is the amount
            that would be received to sell an asset or paid to transfer a liability in an orderly transaction between
            market participants at the measurement date.




                                                                                                                  65
                                                        2011                                   2010
                                           Carrying                              Carrying
                                           amount              Fair value        amount               Fair value

Financial assets:
        Fund Balance with Treasury $      190,790,334 $ 190,790,000 $            203,706,636 $        203,707,000
       Loans receivable                    45,247,578    30,428,000               44,271,564           32,203,000
       Investments, amortized cost          3,922,396     3,922,000                3,849,089            3,849,000
       Investments, cost method            14,610,771    21,608,000               15,388,420           19,440,000
       Interest and other receivable          296,172       296,000                  443,960              444,000

Financial liabilities:
       Awards payable                      42,752,841          42,753,000         31,893,723           31,894,000
       Debt                                35,731,306          23,772,000         41,739,350           28,432,000


           The following methods and assumptions were used to estimate the fair value of each class of
           financial instrument:

           Fund Balance with Treasury, interest and other receivable and awards payable: The carrying
           amounts, at face value or cost plus accrued interest, approximate fair value because of the short
           maturity of these instruments.

           Loans receivable, debt and investments, amortized cost: The fair value is determined as the present
           value of future contractual cash flows discounted at an interest rate that reflects the risks inherent in
           those cash flows. The discount rates approximate rates currently offered by local lending institutions
           for loans of similar terms to companies with comparable risk. The fair value of nonperforming loans
           is determined as the present value of expected future cash flows discounted at an interest rate that
           reflects the risks inherent in those cash flows. The expected cash flows were estimated based on the
           awardee’s financial condition and the long-term potential of the business in relation to the maturity
           date of the loan. The fair value of certificates of deposit is discounted cash flow at a market rate.

           Investments, cost method: The CDFI Fund records these equity investments under the cost method
           of accounting. The CDFI Fund considers qualitative assessments of the viability of the investee,
           fundamental financial analysis and evaluation of the financial statements of the investee and
           prospects for its future.

     (b)   Fair Value Hierarchy

           The CDFI Fund does not record investments or loans at fair value on a recurring basis. However,
           from time-to-time, the CDFI Fund records nonrecurring fair value adjustments to reflect partial
           write-downs that are based on current financial indicators of the awardees. The CDFI Fund uses
           qualitative assessments of the viability of the awardee, evaluation of the financial statements of the
           awardee and prospects for its future. Financial statement disclosures and audit opinions were
           reviewed for the most recent five years for indications of going concern or operational issues.
           Calculations of pro-rata equity, financial performance ratios, total cash and other trend analysis were
           performed to determine fair value.

           There were no assets measured at fair value on a nonrecurring basis in 2011 that were still on the
           balance sheet at year end. For assets measured at fair value on a nonrecurring basis in 2010 that
                                                                                                                   66
            were still on the balance sheet at year end, the following table provides the level of valuation
            assumptions used and the carrying value of the related individual assets or portfolios at year end.

                                       Fair Value Measurements as of September 30, 2010 Using
                                       Level 1      Level 2           Level 3            Total Loss
             Investments, cost     $       —       $      —       $        15,388,420     $       (1,965,000)
                     Total         $       —       $      —       $        15,388,420     $       (1,965,000)

            None of the CDFI Fund’s investments are in publicly traded entities for which a share price can be
            readily obtained; accordingly, the CDFI Fund used Level 3 inputs to measure fair value of
            investments.

            Investments with a carrying value of $17,353,420 were written down to their fair value of
            $15,388,420 resulting in an impairment loss of $1,965,000, which was included in earnings for 2010.

(8)   Cost Method Investments
      Investments accounted for under the cost method consist of non-voting common stock held in for-profit
      CDFI Program awardees and preferred non-voting stock held in two awardees. The aggregate amount of
      these investments is $14,610,771 and $15,388,420 at September 30, 2011 and 2010, respectively. All
      securities were evaluated for impairment. Four investments were written off during fiscal year 2011
      totaling $777,649. Two investments were written off during fiscal year 2010 totaling $3,921,400.

(9)   Equity Method Investments
      Investments accounted for under the equity method consist of a Class B limited partnership interest in
      Sustainable Jobs Fund, LP (12%), an interest in Pacific Community Ventures (9%), a non-voting
      redeemable transferable interest in BCLF Ventures II, LLC (18%) and three units of preferred interest in
      Shorebridge Capital LLC (17%). The investment in Shorebridge was liquidated during fiscal year 2011.
      Equity method investments totaled $2,615,220 and $3,018,116 at September 30, 2011 and 2010,
      respectively.




                                                                                                                  67
(10) Debt
    Debt consists of amounts borrowed from the Treasury Department and included the following activity for
    the years ended September 30, 2011 and 2010:


                                                                              2011               2010
     Beginning balance                                              $    41,739,350      $    40,638,011
     New borrowings                                                        1,805,699            6,309,129
     Repayments                                                           (7,813,743)          (5,207,790)
                        Ending balance                              $    35,731,306      $    41,739,350


    The payments to the Treasury Department are due on September 30 of each year of maturity. Principal
    payments on this debt as of September 30, 2011 are as follows:

                                                                Principal
                                         Fiscal Year            Payments
                                2012                      $         381,566
                                2013                                407,114
                                2014                                171,094
                                2015
                                2016
                                Later years, through 2037        34,771,532
                                                          $      35,731,306


    During fiscal year 2011, the CDFI Fund borrowed $1,131,320 due to downward subsidy reestimate and
    $674,379 to meet annual interest payments due to the Treasury Department, at interest rates ranging from
    1.85% to 6.48%, depending on maturity dates or risk categories.

    During fiscal year 2010, the CDFI Fund borrowed $5,879,499 due to downward subsidy reestimate and
    $429,630 to meet annual interest payments due to the Treasury Department, at interest rates ranging from
    1.85% to 6.36%, depending on maturity dates or risk categories.

    Interest paid in cash for the years ended September 30, 2011 and 2010 was $1,865,870 and $2,135,561,
    respectively.

    The CDFI Fund has permanent indefinite borrowing authority to fund downward subsidy reestimates and
    annual interest payments to the Treasury Department. These costs do not reduce the CDFI Fund’s net
    position.

(11) Commitments
    (a)     Operating Leases
            The CDFI Fund leases office space from the General Services Administration in the Homer Building
            located in Washington, D.C. under the terms of an operating lease (renewed in FY 2007) which
            expires in January 2012. The CDFI Fund also leases equipment under the terms of an operating
            lease. The total operating lease expense was $1,549,704 and $1,492,285 for the years ended
            September 30, 2011 and 2010, respectively.
                                                                                                           68
           Future minimum payments due under these operating leases as of September 30, 2011 were as
           follows:


                                                            Minimum
                                       Fiscal Year       lease payments
                                       2012        $         382,051
                                       2013                   20,276
                                       2014                      -
                                       2015                      -
                                       2016                      -
                                                   $         402,327


     (b)   Award and Purchase Commitments
           As of September 30, 2011 and 2010, award commitments amounted to $117,154,017 and
           $57,091,588, respectively. Award commitments relate to CDFI Program, NACA Program and CMF
           awards which were approved by CDFI Fund management but not disbursed as of the end of the year.
           Award commitments are not considered liabilities at year-end if the awardees have not met the
           conditions required for payment. Award commitments pertaining to the BEA Program of $0 and
           $24,727,288 as of September 30, 2011 and 2010, respectively, represent reimbursable expenditures
           and are excluded from these amounts since they are reflected as liabilities on the CDFI Fund’s
           balance sheet. Award commitments pertaining to CDFI Program of $37,752,841 and $7,166,435 as
           of September 30, 2011 and 2010, respectively, and CMF award commitments of $5,000,000 and $0
           as of September 30, 2011 and 2010, respectively, are also reflected as liabilities as these awardees
           have met the conditions required for payment.

           Purchase commitments of $6,926,752 and $2,980,007 as of September 30, 2011 and 2010,
           respectively, relate to the unexpired portion of contracts, and purchase orders relating to goods and
           services not yet received.

(12) Unexpended Appropriations
     Unexpended appropriations for the years ended September 30, 2011 and 2010 were as follows:


                                                                                2011                   2010

      Beginning unexpended appropriations                              $       178,568,702    $        91,546,608
        Appropriations received                                                227,000,000           260,250,000
        Appropriations for Subsidy Reestimate                                     4,386,127             1,946,321
        Appropriations cancelled                                                  (577,630)             (263,955)
        Appropriation rescission                                                  (454,000)                  —
        Appropriations expended                                              (245,929,283)         (169,030,773)
        Downward Subsidy Reestimate Adjustment                                  (2,056,748)           (5,879,499)
               Change in unexpended appropriations                            (17,631,534)             87,022,094
      Ending unexpended appropriations                                 $      160,937,168     $      178,568,702




                                                                                                               69
(13) Imputed Financing

     Imputed financing represents specific expenses relating to the CDFI Fund paid for by another Federal
     organization. The components of imputed financing for the years ended September 30, 2011 and 2010 are
     as follows:


                                                                              2011                2010
      Pension Cost (CSRS Retirement Plan)                             $       105,217     $      114,659
      Pension Cost (FERS Retirement Plan)                                      74,985            104,734
      Health Insurance (Health Benefits Program)                              349,566            375,031
      Life Insurance (Group Life Insurance Program)                             1,098              1,095
      Audit Fees                                                              364,646            343,591
                      Total                                           $       895,512     $      939,110


(14) CDFI Program and CMF grant expense
     The CDFI Fund had CDFI Program grant expense of $151,927,165 and $122,881,601 as of September 30,
     2011 and 2010, respectively. CMF grant expense was $80,000,000 and $0 as of September 30, 2011 and
     2010, respectively.


(15) Administrative Expenses
     Administrative expenses consist of the following for the years ended September 30, 2011 and 2010:


                                                                               2011                2010
      Personnel compensation and benefits                              $       8,547,504 $         8,644,359
      Travel                                                                     123,049             214,433
      Rent, communications, utilities and miscellaneous charges                1,804,643           2,327,266
      Contractual services                                                     6,987,869           7,552,778
      Information technology systems maintenance                                 149,582              86,771
      Amortization                                                               351,857             447,807
      Supplies and printing                                                      220,742             134,136
      Other                                                                       (1,519)             38,602
                      Total                                            $      18,183,728 $        19,446,152




(16) Related Party Transactions
     The CDFI Fund has Interagency agreements with the Treasury Department. As of September 30, 2011 and
     2010 these related party expenses amounted to $2,279,678 and $2,608,275, respectively. As of September
     30, 2011 and 2010 related party receivables were $13,951 and $0, respectively.

     Expenses were recorded as follows for fiscal years 2011 and 2010: Interagency Agreements with OFM for
     financial management services, conference and events; postage; human resources services, for the amount
     of $807,803 and $825,615 for fiscal years 2011 and 2010, respectively. An Interagency Agreement with
                                                                                                           70
     the Working Capital Fund shared IT services from the Office of the Chief Information Officer, for the
     amount of $341,947 and $255,408 for fiscal years 2011 and 2010, respectively. An Interagency
     Agreement with Treasury’s Departmental Offices, Office of the Chief Information Officer for IT network
     administration services for the amount of $582,223 for fiscal year 2010. An Interagency Agreement with
     the BPD for accounting services, e-Travel and Prism for the amount of $789,591 and $676,276 for fiscal
     years 2011 and 2010, respectively. An Interagency Agreement with BPD for application intake process
     and website hosting for the amount of $252,563 for fiscal year 2010. An Interagency Agreement with
     Alcohol and Tobacco Tax and Trade Bureau for IT services for the amount of $340,337 and $16,190 for
     fiscal years 2011 and 2010, respectively.

     Receivables were recorded as follows as of September 30, 2011: Interagency receivables with OFM for
     $13,951 for IT shared services.

(17) Subsequent Events
     The CDFI Fund has evaluated subsequent events from the date of statements of financial position through
     November 10, 2011, the date at which the financial statements were available to be issued, and determined
     there are no other items to disclose.




                                                                                                           71
Appendix A: FY 2011 CDFI Fund Award and Allocation Activities



Appendix A                                                  FY 2011 CDFI Fund Award and Allocation Activities

                                                                                                                                        Allocation of New
                            FA Awards      TA Awards (1)             NI Awards                   CMF Awards      Total Awards           Markets Tax Credits

  STATE                #          $        #        $            #            $             #           $        #            $         #           $


Alabama                1        $600,000                                                                             1      $600,000

Alaska                                                       1               $725,000                                1      $725,000

Arizona                2      $1,350,000                     2               $149,892        1      $1,000,000       5     $2,499,892   3    123,000,000

Arkansas               2      $2,097,975                                                                             2     $2,097,975

California             14    $16,258,250   3     $265,564    1          $     557,854        6     $23,000,000       24   $40,081,668   10   327,000,000

Colorado               2      $2,100,000                                                                             2     $2,100,000

Connecticut                                2      $94,876                                                            2       $94,876

Delaware               1      $1,500,000                                                                             1     $1,500,000

District of Columbia   2      $3,000,000   1      $97,890                                                            3     $3,097,890   5    179,000,000

Florida                1      $1,500,000   1      $65,000                                                            2     $1,565,000   2    84,000,000

Georgia                2      $1,100,000   1      $13,456                                    1      $4,000,000       4     $5,113,456

Hawaii                 2      $1,492,690                     7              $1,529,048                               9     $3,021,738

Idaho                                                                                        2      $2,479,522       2     $2,479,522

Illinois               4      $7,500,000                                                                             4     $7,500,000   3    88,000,000

Indiana                                    1      $89,271                                                            1       $89,271    1    32,000,000

Iowa                                                                                                                 -            $0    3    122,000,000

Kansas                                                                                                               -            $0                        -

Kentucky               4      $5,100,000   1      $97,995                                                            5     $5,197,995   2    32,000,000

Louisiana              4      $6,500,000   2     $121,567                                                            6     $6,621,567   8    310,000,000

Maine                  2      $4,500,000   1      $96,204    1               $725,000                                4     $5,321,204   1    77,000,000

Maryland               3      $4,500,000                                                                             3     $4,500,000   5    167,000,000

Massachusetts          8      $7,800,000   1      $99,928                                    2      $9,000,000       11   $16,899,928   4    169,000,000

Michigan               3      $4,500,000                     2               $864,620        2      $6,000,000       7    $11,364,620   2    71,000,000

Minnesota              7      $6,950,000   2     $200,000    4              $1,732,930       1      $5,000,000       14   $13,882,930   4    190,000,000

Mississippi            1      $1,500,000                                                     1      $4,000,000       2     $5,500,000   2    81,000,000

Missouri               1      $1,500,000   3     $263,494                                                            4     $1,763,494   6    144,000,000

Montana                2      $3,000,000   1      $79,995                                                            3     $3,079,995   1    56,000,000



The CDFI Fund’s FY 2011 BEA Program Awards will be announced during the first quarter of FY 2012



                                                                                                                                                          72
Appendix A Continued


Appendix A                                                    FY 2011 CDFI Fund Award and Allocation Activities
                                                                                                                                               Allocation of New
                                                                                               CMF
                            FA Awards       TA Awards (1)                 NI Awards                                   Total Awards        Markets Tax Credits
                                                                                           Awards
  STATE               #           $         #        $               #         $           #       $              #             $         #              $

Nebraska                                     1      $77,808          1       $129,483                                  2      $207,291
Nevada                                                                                                                 -             $0

New Hampshire           2      $3,000,000                                                   1     $3,700,000           3     $6,700,000
New Jersey              2      $2,100,000    1      $99,840                                                            3     $2,199,840   2           63,000,000

New Mexico                                   1      $99,990          2       $398,696                                  3      $498,686    1           46,000,000

New York               16     $19,050,000    1      $99,990                                 2     $7,000,000          19    $26,149,990   10         344,000,000

North Carolina          7      $8,400,000                            1       $725,000                                  8     $9,125,000   1           56,000,000
North Dakota            1        $731,191                                                                              1      $731,191

Ohio                    2      $2,500,000    1      $47,002                                 1     $5,000,000           4     $7,547,002   6          145,000,000

Oklahoma                                     1      $99,999          3      $1,599,775                                 4     $1,699,774   1           39,000,000

Oregon                  3      $2,290,000                            2       $277,705                                  5     $2,567,705   2          119,000,000

Pennsylvania            9     $14,499,990    2    $195,262                                  1     $5,000,000          12    $19,695,252   3          116,000,000
Puerto Rico                                                                                                            -             $0

Rhode Island                                                                                1     $1,000,000           1     $1,000,000
South Carolina          1      $1,500,000                                                                              1     $1,500,000

South Dakota            5      $5,100,000                            4      $1,171,021                                 9     $6,271,021   1           18,000,000
Tennessee                                                                                                              -             $0

Texas                   3      $4,500,000    4    $355,764           1       $100,982                                  8     $4,956,746   2           85,000,000
Utah                    1        $600,000                                                                              1      $600,000
U.S. Virgin Islands                                                                                                    -             $0
Vermont                                                                                                                -             $0
Virginia                4      $6,850,000    1      $94,891                                                            5     $6,944,891   3          112,000,000

Washington              1      $1,500,000    1    $100,000           1       $149,973                                  3     $1,749,973   2           39,000,000
West Virginia                                1    $100,000                                                             1      $100,000

Wisconsin               5      $7,020,900    2    $193,125           2       $285,600       1     $3,820,478          10    $11,320,103   3           66,000,000

Wyoming                                                              1       $725,000                                  1      $725,000
Amounts
Awarded in FY
2011 Funding
Round                 130    $163,990,996   37   $3,148,911      -   36   $11,847,579      23    $80,000,000      226      $258,987,486   99        $3,500,000,000




The CDFI Fund’s FY 2011 BEA Program Awards will be announced during the first quarter of FY 2012




                                                                                                                                                             73
Appendix B: Aggregate Awards (Total CDFI Fund Awards From
Inception)

                                              Appendix B: Aggregate Awards

                                                                                                         Total
                                              Native                                                    Awards              NMTC
                                             Initiative                       CMF                        From            Allocations
   State         FA Awards       TA         Awards (1)     BEA Awards        Awards     FEC Awards     Inception             (2)

 Alabama           $745,000     $475,500              $0      $820,302            $0            $0      $2,040,802   40,000,000

 Alaska           $7,912,500    $403,024     $3,345,383             $0            $0            $0     $11,660,907   90,000,000

 Arizona          $8,906,500    $491,867     $7,654,577      $1,509,288    $1,000,000           $0     $19,562,232   423,000,000

 Arkansas        $12,337,275    $605,647        $70,000      $5,075,223           $0            $0     $18,088,145   140,000,000

 California      $99,634,962   $8,743,769    $1,917,823     $48,376,832   $23,000,000      $400,000   $182,073,386   2,439,000,000

 Colorado        $12,981,300   $4,696,163      $770,000      $2,116,915           $0       $400,000    $20,964,378   472,000,000

 Connecticut      $4,543,500   $1,049,723             $0      $805,205            $0            $0      $6,398,428   85,000,000

 Delaware         $2,423,731    $122,000              $0     $3,451,000           $0            $0      $5,996,731   50,000,000
 District of
 Columbia        $23,803,342   $2,046,732             $0     $7,857,450           $0            $0     $33,707,524   2,034,000,000

 Florida         $20,823,800   $1,420,798             $0    $10,191,003           $0            $0     $32,435,601   219,000,000

 Georgia          $6,633,900   $2,098,737             $0     $7,990,146    $4,000,000      $400,000    $21,122,783   504,000,000

 Hawaii           $2,492,690   $1,001,965    $3,832,216      $1,069,199           $0            $0      $8,396,070   28,000,000

 Idaho            $4,984,300    $200,000              $0            $0     $2,479,522           $0      $7,663,822   -

 Illinois        $51,526,975   $3,253,117             $0    $54,779,048           $0            $0    $109,559,140   889,300,000

 Indiana          $3,058,000    $451,771              $0     $1,648,196           $0            $0      $5,157,967   175,000,000

 Iowa             $4,740,000    $765,050              $0      $508,500            $0            $0      $6,013,550   596,700,000

 Kansas           $1,903,000    $240,504        $25,000      $2,752,432           $0            $0      $4,920,936   -

 Kentucky        $32,756,525   $1,409,455             $0     $7,470,451           $0            $0     $41,636,431   337,500,000

 Louisiana       $17,905,603    $967,837              $0     $4,096,775           $0            $0     $22,970,215   1,991,000,000

 Maine           $21,058,856   $1,038,155    $4,091,418      $1,481,251           $0            $0     $27,669,680   683,000,000

 Maryland        $24,048,360   $1,645,806      $825,947      $2,847,464           $0            $0     $29,367,577   1,615,000,000

 Massachusetts   $34,123,200   $6,832,010             $0     $8,256,879    $9,000,000           $0     $58,212,089   1,322,000,000

 Michigan        $14,365,000    $627,404     $2,287,127      $1,363,766    $6,000,000           $0     $24,643,297   351,000,000

 Minnesota       $37,377,360   $3,745,615    $6,108,729      $9,374,807    $5,000,000           $0     $61,606,511   1,198,000,000

 Mississippi     $15,291,250    $388,366              $0     $3,144,437    $4,000,000           $0     $22,824,053   151,000,000

 Missouri         $5,310,109    $523,318              $0     $6,148,034           $0            $0     $11,981,461   1,316,000,000

 Montana          $9,037,145   $2,112,720    $1,477,917       $315,962            $0            $0     $12,943,744   126,000,000




                                                                                                                                       74
Appendix B Continued
                                                               Appendix B: Aggregate Awards

                                                            Native                                                          Total Awards
                                                           Initiative                                           FEC             From               NMTC
  State                FA Awards             TA           Awards (1)      BEA Awards        CMF Awards         Awards         Inception        Allocations (2)

 Nebraska                  $982,293        $1,739,381       $501,183            $97,832                $0             $0        $3,320,689    23,000,000

 Nevada                          $0          $581,452              $0          $339,200                $0             $0          $920,652    -

 New Hampshire          $16,065,000           $93,425              $0        $1,132,000        $3,700,000      $400,000        $21,390,425    65,000,000

 New Jersey             $18,576,064        $1,404,659              $0        $6,562,390                $0             $0       $26,543,113    476,000,000

 New Mexico             $11,213,011        $1,878,353      $2,226,107          $185,705                $0             $0       $15,503,176    156,000,000

 New York             $126,476,627        $12,857,861       $230,708        $53,676,276        $7,000,000             $0      $200,241,472    3,773,250,000

 North Carolina         $43,909,523        $3,054,383      $3,130,020       $28,766,498                $0      $400,000        $79,260,424    886,000,000

 North Dakota            $2,116,191          $838,786       $965,886            $15,000                $0             $0        $3,935,863    -

 Ohio                   $14,969,620        $3,560,060              $0        $3,851,203        $5,000,000             $0       $27,380,883    1,508,000,000

 Oklahoma                $4,734,190          $699,549      $7,085,112        $3,001,680                $0             $0       $15,520,531    439,000,000

 Oregon                 $13,841,250          $672,891       $550,266         $6,569,895                $0             $0       $21,634,302    580,500,000

 Pennsylvania           $66,549,961        $5,611,689              $0        $2,433,005        $5,000,000             $0       $79,594,655    773,500,000

 Puerto Rico             $1,300,000          $988,041              $0                $0                $0             $0        $2,288,041    55,000,000

 Rhode Island              $750,000          $479,185              $0                $0        $1,000,000             $0        $2,229,185    -

 South Carolina          $2,750,000          $992,338       $149,281         $2,886,980                $0             $0        $6,778,599    349,000,000

 South Dakota           $15,516,403          $677,932    $12,096,473           $722,250                $0             $0       $29,013,058    148,000,000

 Tennessee              $12,073,178          $177,600         $95,000        $5,625,766                $0             $0       $17,971,544    65,250,000

 Texas                  $29,659,267        $5,382,206       $133,738        $15,247,856                $0             $0       $50,423,067    332,000,000

 Utah                    $2,600,000        $1,489,800       $353,000           $120,000                $0             $0        $4,562,800    100,000,000
 U.S. Virgin
 Islands                   $770,000                $0              $0                $0                $0             $0          $770,000    -

 Vermont                $17,820,549          $564,140              $0                $0                $0             $0       $18,384,689    32,000,000

 Virginia               $15,644,385        $1,617,967              $0          $676,739                $0             $0       $17,939,091    823,000,000

 Washington             $14,864,495        $2,522,439      $3,025,739        $3,080,991                $0             $0       $23,493,664    319,000,000

 West Virginia           $3,189,000        $1,128,168              $0                $0                $0             $0        $4,317,168    4,000,000

 Wisconsin              $26,577,886        $1,272,228      $3,120,736        $7,914,818        $3,820,478             $0       $42,706,146    1,317,000,000

 Wyoming                         $0          $100,000      $3,499,348                $0                $0             $0        $3,599,348    -

     TOTALS           $943,673,076        $97,741,586    $69,568,734      $336,356,649        $80,000,000    $2,000,000     $1,529,340,045     29,500,000,000


 (1) Consists of awards made under all Native American Programs.


 (2) Consists of New Markets Tax Credit (NMTC) allocatees headquartered in these states. Amounts shown represents amount of equity supported by tax credits.
   Amounts include FY2008 NMTC Supplemental and Appropriated rounds. FY2009 NMTC Awards have not been made as of 09/11/09.




                                                                                                                                                               75
Appendix C: Glossary of Acronyms

A
AFR – Agency Financial Report
AMIS – Award Management Information System
ARC – Administrative Resource Center
ARRA – American Reinvestment and Recovery Act
of 2009
ATS – Allocation Tracking System
B
BEA – Bank Enterprise Award
BGP – Bond Guarantee Program
C
CCME – Certification, Compliance Monitoring and    CoE – Centers of Excellence
Evaluation                                         COTS – Commercial Off-The-Shelf
CDCI – Community Development Capital Initiative
CDE – Community Development Entity
CDFI – Community Development Financial
Institution
CDFI Fund – Community Development Financial
Institutions Fund
CIIS – Community Investment Impact System
CMF – Capital Magnet Fund

E
ETA – Electronic Transfer Accounts
F
FA – Financial Assistance                          FMFIA – Federal Managers’ Financial Integrity Act
FDIC – Federal Deposit Insurance Corporation
FEC – Financial Education and Counseling Pilot
Program
FFAMIA – Federal Financial Assistance
Management Improvement Act
FFATA – Federal Funding Accountability and
Transparency Act
FFMIA – Federal Financial Management
Improvement Act of 1996

H
HFFI-FA – Healthy Food Financing Initiative – Financial Assistance Program
G
GMLoB – Grants Management Line of Business
I
IDA – Individual Development Accounts
ILR – Institution Level Report
IPERA – Improper Payments Elimination and
Recovery Act
IPIA – Improper Payments Information Act of 2002



                                                                                                       76
N
NACA Program – Native American CDFI
Assistance Program
NMTC – New Markets Tax Credit
NOFA – Notice of Funding Availability

O
OCFO –Office of the Chief Financial Officer    OIG –Office of Inspector General
OFM – Office of Financial Management           OMB –U.S. Office of Management and Budget

P
PAR – Performance and Accountability Report


Q
QALICB – Qualified Active Low-Income Community Business
QEI – Qualified Equity Investment
QLICI – Qualified Low-Income Community Investment
S
SECA - Small and Emerging CDFI Assistance


T
TA – Technical Assistance
TLR – Transaction Level Report




                                                                                           77
